<html>
<title> - U.S. FISH AND WILDLIFE SERVICE, THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, AND THE NATIONAL MARINE FISHERIES SERVICE BUDGET REQUESTS FOR FY'03</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 U.S. FISH AND WILDLIFE SERVICE, THE NATIONAL OCEANIC AND ATMOSPHERIC 
   ADMINISTRATION, AND THE NATIONAL MARINE FISHERIES SERVICE BUDGET 
                          REQUESTS FOR FY'03
=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 7, 2002

                               __________

                           Serial No. 107-91

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
78-049                           WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina







                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 7, 2002....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     1
    Underwood, Hon. Robert A., a Delegate in Congress from Guam..     3
        Prepared statement of....................................     3

Statement of Witnesses:
    Lautenbacher, Vice Admiral Conrad C., Jr., Under Secretary 
      for Oceans and Atmosphere, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     4
        Prepared statement of....................................     7
        Response to questions submitted for the record...........    66
    Williams, Steven A., Director, Fish and Wildlife Service, 
      U.S. Department of the Interior............................    15
        Prepared statement of....................................    17
        Response to questions submitted for the record...........    26



 OVERSIGHT HEARING ON THE U.S. FISH AND WILDLIFE SERVICE, THE NATIONAL 
    OCEANIC AND ATMOSPHERIC ADMINISTRATION, AND THE NATIONAL MARINE 
              FISHERIES SERVICE BUDGET REQUESTS FOR FY'03

                              ----------                              


                        Thursday, March 7, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee on Fisheries Conservation, 
Wildlife, and Oceans will come to order. I want to welcome our 
witnesses here this morning, and Mr. Underwood and the staff. I 
will ask unanimous consent that my statement be submitted in 
full to the record, after the time it took for the staff to 
write it, and it is a good statement.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good afternoon, today, the Subcommittee will examine the budget 
priorities of the National Oceanic and Atmospheric Administration 
(NOAA) and the U. S. fish and Wildlife Service for the upcoming fiscal 
year. I would like to warmly welcome the Undersecretary for Oceans and 
Atmosphere, Vice Admiral Conrad Lautenbacher and the newly confirmed 
Director of the U. S. Fish and Wildlife Service, Mr. Steve Williams.
    I want to commend the Undersecretary for submitting a Fiscal Year 
2003 budget request for NOAA that addresses various long-term agency 
needs. The request proposes construction of the second in a long 
delayed class of new fishery survey vessels; continues the efforts 
started last year under Scott Gudes interim leadership to make much 
needed and, again, long delayed adjustments to base program funding; 
and seeks to further close the hydrographic survey backlog.
    That is the good news.
    Unfortunately, the request also follows the long standing pattern 
of dry side increases and wet side reductions. The National Ocean 
Service is cut by $100 million, the National Marine Fisheries Service 
by $60 million and the Office of Oceanic and Atmospheric Research by 
$80 million. On the other hand, both the National Weather Service and 
NOAA's satellite service receive generous increases. These cuts do not 
show the commitment we should be seeing from the Administration to long 
term conservation and sustainable management of our nation's marine 
resources.
    I am particularly concerned about two of the proposed wet side 
cuts. First, the request eliminates the National Sea Grant College 
Program Office, effectively orphaning the existing Sea Grant colleges 
including those in Maryland, Alaska, Louisiana, New Jersey, North 
Carolina, Hawaii and Texas.--I am sure the relevance of that list isn't 
lost on the Undersecretary.
    This purported ``transfer'' of the Sea Grant program is simply a 
transfer of dollars concocted to portray a genuine increase in funding 
for the National Science Foundation. The proposal boosts funding for 
the NSF from five-billion-35-million-dollars to five-billion-91-
million- dollars but, in doing so, dismantles an effective and 
important research and education enterprise. NOAA's entire budget is 
only $3.2 billion--this ``transfer'' is truly a case of robbing the 
poor to benefit the rich--all to the detriment of our coastal 
resources.
    Since you heard my comments on Sea Grant at length last week, I 
will just remind you that Sea Grant provides links between marine 
resources researchers, and those who manage and use those resources. 
Severing that link is short sighted and counterproductive to our goal 
of protecting of U.S. marine resources.
    The second area of particular concern is much closer to home. The 
request cuts in half the amount of money available for NOAA's 
Chesapeake Bay office. The office is located in Annapolis, MD. These 
cuts will hinder research on blue crabs; development of meaningful 
multi-species management plans; slow the assessment of the bay's living 
marine resources; and reduce vital efforts to restore viable oyster 
reef habitat. These cuts occur at a time of crisis for the Chesapeake 
Bay, when forward-thinking approaches and effective management are 
required to preserve the integrity of this resource. I look forward to 
an explanation of these devastating cuts.
    In terms of the U. S. Fish and Wildlife Service, I am pleased that 
the Administration has requested an increase of $57 million for the 
National Wildlife Refuge System and full funding for the Multinational 
Species Conservation Fund, the North American Wetlands Conservation 
Fund and migratory bird management. My biggest concerns are decreases 
in funding for ecological services, fisheries and the huge reduction in 
the land acquisition account. It is essential that critical habitat for 
endangered species be acquired in a consistent and systematic way each 
year and this funding level is not sufficient to satisfy the need.
    I would also note that during the upcoming fiscal year, the 
National Wildlife Refuge System will celebrate its 100th birthday. The 
refuge Centennial Commission will hold its first meeting next week and 
it is appropriate that the Bush Administration has requested $107 
million to help reduce the maintenance backlog. This is an historic 
level of commitment and it will produce positive results for not only 
wildlife but the nearly 40 million people who visit our refugees each 
year. As a result, of the investments we have made during the past few 
fiscal years, the maintenance backlog has dropped from $886 to $660 
million. While this level is still too high, we are moving in the right 
direction and this request will continue the process of moving toward 
the vision of President Theodore Roosevelt that the refuge system 
become a showcase of public lands.
    Finally, we will be submitting a number of follow-up questions to 
both Admiral Lautenbacher and Director Williams. I would request that 
every effort by made to respond to these inquires within 90 days. 
Frankly, it does us little good to receive your thoughtful responses, 
seven or eight months, after the hearing. I would urge my colleagues to 
utilize this hearing to ask about any programs under the jurisdiction 
of these agencies.
    I am now pleased to recognize my friend and colleague, the Ranking 
Democratic Member of the Subcommittee, Congressman Robert Underwood.
                                 ______
                                 
    Mr. Gilchrest. Admiral Lautenbacher, we look forward to 
engaging you this afternoon with your priorities for the budget 
and hope that as we go through the process with the 
authorization and the appropriations that we can find some 
meeting of the minds as far as setting priorities are 
concerned, using this budget as a vehicle to address the needs 
of the nation.
    I would make the statement that your two agencies are 
fundamentally the chief advocates for the biosphere for the 
citizens of the United States, and so I would hope as we go 
through the process we can make the priorities in such a way 
that we understand the nature of the mechanics of the natural 
processes that sustain life on earth and that as we pursue our 
goals to achieve a healthier biosystem, we will be key to those 
aspects that your agencies can provide. It is an enormous 
responsibility and I hope that, collectively, with the 
pervasive wisdom that is available to all of us, we can 
accomplish great things.
    Mr. Gilchrest. I will yield now to Mr. Underwood.

 STATEMENT OF HON. ROBERT A. UNDERWOOD, A DELGATE IN CONGRESS 
                           FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman, and I, too, would 
like to enter a statement for the record after your opening 
statement. I just wanted to talk about Guam, but now that you 
have broadened the scope a little bit--
    Mr. Gilchrest. Please feel free to talk about Guam.
    Mr. Underwood. Quite in concert with your statement, as we 
look at Mr. Williams and Admiral Lautenbacher in front of us 
today, it does occur, I think, the importance and the gravity 
of their efforts in terms of land, sea, and air. These are all 
the critical elements that we tried to understand life and 
human and very imperfect efforts sometimes to sustain it in all 
its manifestations. Certainly, the gravity of that effort has 
to be matched by real policy commitment and it also has to be 
matched by dollars and that is the nature of the enterprise.
    So certainly we do have a number of questions that we would 
like to raise today regarding specific programs and we will do 
so and I look forward to this hearing. Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    [The prepared statement of Mr. Underwood follows:]

  Statement of The Honorable Robert Underwood, a Delegate to Congress 
                               from Guam

    Good afternoon, Mr. Chairman, and thank you for holding this 
hearing on the Fiscal Year 2003 budget requests for the Fish and 
Wildlife Service and the National Oceanic and Atmospheric 
Administration (NOAA). I appreciate the opportunity to learn more about 
these requests and to ask questions on those areas of particular 
relevance to my constituents.
    As you can understand, Guam has a definite interest in the funding 
of both these agencies and their many important programs. And as a 
Committee, we have a firm responsibility to ensure that the funds 
appropriated to these agencies are spent wisely and for the benefit of 
all the people of the United States.
    These agencies are responsible for numerous important environmental 
programs. Coastal zone management, coral reef protection, the National 
Wildlife Refuge System, the Marine Sanctuary Program, migratory bird 
management, all of these programs provide for the long-term stewardship 
of our Nation's natural resources.
    In general, the amount of reprogramming of funds within NOAA's 
budget is unsettling, especially those transfers without a clear basis. 
I am interested in learning more about the background and justification 
for these changes and new initiatives.
    In similar fashion in the Fish and Wildlife Service budget, funding 
has been shifted from established programs to support the Cooperative 
Conservation Initiative. While there is no reason to doubt the 
potential merit of the Cooperative Conservation Initiative, why can't 
the Administration accomplish these objectives through established 
programs?
    It would appear on the surface that the Fish and Wildlife Service 
fared well when compared to other programs in the Department of the 
Interior.
    Unauthorized programs, however, come at the expense of other 
important programs to protect endangered species or the unmet needs of 
the National Wildlife Refuge System. Vital programs like these should 
not be treated like poor step children.
    I would like more details regarding the creation and execution of 
new programs that take money away from existing worthwhile programs.
    The Congress must continue to provide sufficient funding to ensure 
that authorized programs are able to fulfill their missions. Only by 
paying now and spending wisely will we ensure that we do not incur 
greater costs in the future for protecting and utilizing our natural 
environment and its resources.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. I think, Admiral Lautenbacher, you are first 
on the agenda. You may begin, sir.

 STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., UNDER 
   SECRETARY FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you very much. Mr. Chairman, 
Mr. Underwood, members of the staff, it is a great pleasure and 
a privilege to be here with you this afternoon to discuss the 
aspects of our Fiscal Year 2003 budget for the National Oceanic 
and Atmospheric Administration.
    I want to echo the comments of the Chairman, Mr. Underwood. 
I take this responsibility very seriously. I look forward to 
working with you with this budget to try to do the best that we 
can for the people of the country and for our biosphere.
    The budget that we have submitted this year, it is a tight 
budget but I believe it is a good budget. For NOAA, it 
represents $3.33 billion in total budget authority. That is 
roughly level with last year's request. It represents a slight 
decrease, but in effect, it is what I would call an even 
budget. There are realignments within that budget, some of 
which I think are very critical that I would like to ask your 
support for.
    We have highlighted such areas as people and 
infrastructure. There are basically $129 million in that $3.3 
billion, which we call ``adjustments to base'' and that provide 
for our human capital, our greatest asset. Without the treasure 
trove of scientists and interdisciplinary teams and knowledge 
that has been built up over the years, the organization would 
not be able to meet its responsibilities in protecting the 
biosphere. So we are asking for help in approving that part of 
our budget that keeps us up with inflation for pay raises and 
for supporting the people that do the good work for our 
country.
    We have asked for roughly $90.9 million in additional 
funding for fisheries modernization. Modernization of our 
infrastructure is extremely important. As you well know, there 
are a number of areas in our infrastructure that need help and 
that have been at the bottom of the priority list for many 
years.
    Within that $91 million, we ask for fishery science $75 
million of that increase and half of that, basically $45 
million, a little more than that, is for the second fisheries 
research vessel. This will replace the 39-year-old Albatross IV 
in the North Atlantic. This is the second of our series to 
modernize our fisheries research vessels and desperately 
needed.
    We are also asking for $10 million to modernize our annual 
stock assessments. We believe that we need to step up our 
efforts to conform to the national stock assessment standards 
of data quality, assessment frequency, advanced modeling. This 
will help us to recover endangered species and to recover 
fisheries.
    We also have an increase of about $3 million for an 
observer program. That is very important to level the playing 
field to ensure that our fisheries regulations are done fairly 
and will allow the recovery of fisheries as fast as possible.
    In the fisheries management area, we have requested about a 
$6 million increase. Three million dollars of that is to 
improve our management of the NEPA, or National Environmental 
Protection Act, process. As you are aware, we have had many 
suits in the past based on process. We need to stiffen the 
rigor of our procedures in order to ensure that we do things 
correctly as we are working through the process of improving 
fisheries.
    We also have $2 million for improving the workload, 
responding to increased workload for our regional fisheries 
management councils. They, too, have become burdened over the 
years with the increase in regulation and the need to build 
management plans and interface with various sectors of our 
local and regional economies.
    We are also asking for $1.5 million to provide for more 
complete and timely environmental and economic analysis. We 
have in the past neglected to ensure that we understand the 
impacts of what we are doing and what our laws and regulations 
are doing socially and economically within the regions.
    We are asking for about a $10 million increase to our 
enforcement programs within NMFS. This includes $5.4 million 
for additional support for the Vessel Monitoring System 
program. This is an automated system to help replace human 
observers. Essentially, technology will allow us to tell where 
all of the fishing vessels are, to tell whether they are 
violating any of the closure areas and that they are uniformly 
obeying our procedures, and that has room to grow because you 
will have the advantage of being able to send a lot more data 
through these systems as they get installed.
    We are also asking for $4 million to expand and modernize 
our protected species and fisheries enforcement programs. This 
will bring our agents up to date and provide them with modern 
technology and training to improve uniform enforcement.
    There is $36 million for climate services, including $18 
million for NOAA's piece of the President's climate change 
research initiative announced several weeks ago at NOAA 
headquarters. Of particular interest to this Committee is $4 
million to improve global ocean observing system components. We 
believe that is critical, both for the ocean piece of our 
responsibility as well as improving our ability to forecast 
climate.
    We have also asked for $2.5 million to outsource UNOLS and 
other vessels to help NOAA meet its research requirements. We 
have a backlog in days at sea and we are trying to take 
advantage of all the assets available to the Federal 
Government.
    We are continuing to ask for $14 million for ocean 
exploration. We have stated many times before, our oceans 
remain largely unexplored. This is an initiative that was 
started a couple of years ago very successfully and is 
beginning to produce some excellent results for us.
    We have also requested about $10 million for a vessel lease 
time charter in order to improve and expand our hydrographic 
surveying capacity and decrease the backlog in our charting and 
biometry requirements.
    Now, of our coastal ocean conservation activities, we have 
requested--well, of the total, it is about $350 million for 
coastal conservation activities. Seventy-six-million of that is 
for coastal zone management activities and another $10 for non-
point pollution implementation grants. These are very important 
parts of our budget for managing our coastal resources.
    The National Marine Sanctuary program request is at $46 
million. We believe this continued investment will enhance our 
operating and technical capacity in our 13 National Marine 
Sanctuaries.
    We are also requesting $26 million for the National 
Estuarine Research Reserve System. We expect that there will be 
26 of these reserves in 21 States and territories by the end of 
Fiscal Year 2003, given the process as it is moving.
    We have also asked for $28 million for programs that will 
impact conservation, research, and monitoring of coral reefs. 
We have a national treasure to protect there.
    Also part of coastal conservation, we are requesting $24 
million for fisheries and other habitat restoration programs, 
another vital piece of our management and service of the 
biosphere.
    The Pacific salmon recovery effort is requested at a total 
of $127 million this year, and that concludes what I would like 
to highlight in terms of the pieces of our budget that are 
either increases or special need.
    Let me close with a couple of comments on the National Sea 
Grant program, which was asked in the request for this hearing. 
The Administration is proposing to transfer the Sea Grant 
College program from NOAA to NSF. The basic tenet here is that 
NSF is our premier manager of research efforts in our country. 
They are very efficient in how they do it. Their record of 
achievement, I think, has been stellar.
    The management of that program could assume management of 
the National Sea Grant College program. The basic and applied 
research pieces of it could be taken and managed underneath the 
NSF umbrella. We would work with the NSF through this coming 
year in order to build mechanisms to continue the outreach and 
education extension, the two legs of the three-leg triangle or 
stool on which Sea Grant is based in order to ensure that the 
intent of the program is continued. The Administration believes 
that it is a good program and wants to see it continued. The 
intent would be to manage it more efficiently under the NSF 
umbrella.
    Let me say again how much I appreciate the support of this 
Committee and the members and the staff and I look forward to 
working with each one of you as we go forward to build the best 
possible program for our country. Thank you very much, Mr. 
Chairman.
    Mr. Gilchrest. Thank you very much, Admiral.
    [The prepared statement of Admiral Lautenbacher follows:]

 Statement of Conrad C. Lautenbacher, Jr., Under Secretary of Commerce 
       for Oceans and Atmosphere, Vice Admiral, U.S. Navy (Ret.)

    Thank you, Mr. Chairman, and members of the Subcommittee, for this 
opportunity to testify on the President's Fiscal Year 2003 Budget 
Request for the National Oceanic and Atmospheric Administration (NOAA). 
I will focus my remarks today on the budget items of particular 
interest to this Committee. I will start by discussing programs with 
proposed funding increases.
    Let me begin by saying that this budget supports and enhances the 
goals of the President and the Department of Commerce. NOAA has 
established itself as one of the world's premier scientific and 
environmental agencies. We are an agency that deals with environmental 
change. We are an agency whose products form a critical part of the 
daily decisions made by Americans across the Nation and have economic 
impacts which affect our Nation's Gross Domestic Product. From our 
climate predictions that impact farming and financial decisions, to our 
hydrological products that affect public utilities and energy 
consumption, NOAA is a critical part of our Nation's economic security.
    We are experts in climate, with its cooling and warming trends. We 
are an agency that manages fluctuating fisheries and marine mammal 
populations. We observe, forecast and warn the public about the rapidly 
changing atmosphere and especially severe weather. We monitor currents 
and tides, and beach erosion. We survey the ocean bottom and provide 
mariners with products to maintain safe navigation. We operate the 
Nation's most important constellation of earth-observing satellites. 
Lastly, we provide all this knowledge and exploration to citizens 
everywhere, especially to schools and young people across our Nation 
through our website www.noaa.gov. We provide this as a result of our 
mission to advance environmental assessment, environmental prediction, 
and natural resource stewardship for our great Nation.
    This budget supports products that are essential for decision 
makers in every part of our economy. NOAA's budget will continue to 
fund products that assist in protecting the health and safety of this 
Nation's citizens from both routine and severe environmental changes. 
This budget supports our research, science and services from the local 
weather forecast offices around the Nation to our Fisheries Research 
Vessels that ensure sustainable stocks of our Nation's fisheries. It 
provides for technology infusion and critical infrastructure protection 
to reduce single points of failure for our satellite and weather 
prediction programs; continues our special partnerships with 
universities, states, and local governments around the Nation; and 
invests in education and human resources. This budget also supports our 
vast infrastructure, which will allow NOAA to continue its mission in 
years to come.
    In a period of strongly competing Presidential priorities for our 
national defense, and economic security, the President's Fiscal Year 
2003 Budget Request for NOAA is $3,330.5 million in total budget 
authority, and represents a decrease of $45.4 million below the Fiscal 
Year 2002 Enacted level. Within this funding level, NOAA proposes 
essential realignments that allow for a total of $148.8 million in 
program increases, and $129.0 million in base adjustments. NOAA's 
request highlights critical areas such as People and Infrastructure, 
Improving Extreme Weather Warnings and Forecasts, Climate Services, 
Modernization of NOAA Fisheries, and other key NOAA programs such as 
Energy, Homeland Security, Ocean Exploration, and Coastal Conservation.
People and Infrastructure: $129.0 million adjustment-to-base
    NOAA's people and infrastructure are at the heart of what NOAA is 
and does. From our National Marine Sanctuary in the Florida Keys to 
NOAA's fisheries offices in Juneau, these are the underlying and 
interconnecting threads that hold NOAA and its programs together. 
Investments in NOAA's scientific and technical workforce as well as 
NOAA's facilities and equipment is essential for us to carry out our 
mission into the 21st Century.
Modernization of NOAA Fisheries: $90.9 Million Increase
    The Fiscal Year 2003 President's Budget Request for NOAA, invests 
in core programs needed for our National Marine Fisheries Service 
(NMFS) to meet its mission to manage fisheries, rebuild stocks, and 
protect endangered species such as sea turtles and whales. NMFS 
modernization funds will be allocated to ensure that existing statutory 
and regulatory requirements are met for fisheries and protected species 
management programs (including the Magnuson-Stevens Act, National 
Environmental Protection Act, Endangered Species Act, Marine Mammal 
Protection Act, and other statutory requirements). This budget request 
continues NOAA's effort to modernize NOAA's Fisheries. The 
Modernization of NMFS encompasses a long-term commitment to improve the 
NMFS structure, processes, and business approaches. In addition to this 
budget request, the Administration will propose that any 
reauthorization of the Magnuson-Stevens Fisheries Conservation and 
Management Act include authority for fishing quota systems within 
regional fisheries, including transferable quotas, where appropriate. 
This initiative focuses on improving NMFS' science, management, and 
enforcement programs and begins to rebuild its aging infrastructure. 
These improvements will result in measurable progress in the biological 
and economic sustainability of fisheries and protected resources. To 
continue this modernization program, NOAA's Fiscal Year 2003 
President's Budget Request includes the following program investments 
in Science, Management, and Enforcement.
Science: $74.8 Million Increase
    Fisheries Research Vessel: NOAA requests an increase of $45.5 
million for a total of $50.9 million for NOAA's second Fisheries 
Research Vessel (FRV2). This vessel will replace the 39-year old 
ALBATROSS IV in the North Atlantic. Costs of maintaining the aging 
ALBATROSS IV for the five years needed to construct the replacement FRV 
and to allow side-by-side missions for calibration purposes are 
escalating. Moreover, replacing the aging fleet is required to provide 
research platforms capable of meeting increasingly sophisticated data 
requirements for marine resource management.
    Modernize Annual Stock Assessments: NOAA requests an increase of 
$9.9 million to modernize annual stock assessments. Funding will allow 
NMFS to conform to new national stock assessment standards of data 
quality, assessment frequency, and advanced modeling. An increase of 
$5.1 million is requested to provide for the recruitment and training 
of stock assessment biologists and supporting staff to produce annual 
stock assessments that meet the new standard for Federally managed 
stocks. This request would also add an increment of 260 Fisheries 
vessel/charter days at sea toward the balance of 3,000 days identified 
in the NOAA Fisheries Data Acquisition Plan at a cost of $2.4 million. 
The initiative includes $0.9 million for advanced sampling 
technologies. This element targets improvements and innovative uses of 
existing technologies, including the application of new and advanced 
sampling systems and approaches. Also, included in this request is $1.5 
million to enhance fisheries oceanography studies, principally, the 
Fisheries and the Environment program (FATE).
    Endangered Species Act Sea Turtle Research: NOAA requests an 
increase of $2.0 million for a total of $6.5 million to continue the 
recovery of highly endangered sea turtles. Of the $2.0 million 
increase, $1.4 million is to provide the necessary research to recover 
highly endangered marine turtles. This program is designed to help us 
collect information on biology and habitats and share that information 
with other range countries. The remaining $0.6 million is requested to 
implement management strategies to reverse population declines, 
implementation of multi-lateral international agreements, and building 
capacity through domestic and international educational and outreach 
programs.
    Columbia River Biological Opinion (BiOp) Implementation: NOAA 
requests an increase of $12.0 million to provide for the research, 
monitoring, and evaluation (RM&E) necessary to continue implementation 
of measures included in the Columbia River Biological Opinion. The RM&E 
program will provide the scientific information necessary to assess 
whether BiOp performance measures are being achieved at 2003, 2005, and 
2008 check-ins. This funding also provides for the research needed to 
address key uncertainties identified in the BiOp in the areas of 
estuary and near-shore ocean survival, delayed effects related to dam 
passage, and the effects of hatchery programs on the productivity of 
naturally spawning fish.
    Recovery of Endangered Large Whales: NOAA requests an increase of 
$1.0 million to provide resources to scientifically determine whether 
two key endangered whales--humpbacks and bowheads--have recovered and 
are candidates for delisting. This information will enable NOAA to 
detect changes in the status of large whales and prevent any long-term 
irreversible damage to these populations.
    Socioeconomics: NOAA requests an increase of $1.5 million for a 
total of $4.0 million to support the on-going development of a multi-
year comprehensive social sciences program to support NMFS policy 
decisions. The approach is 3-tiered, augmenting the integral components 
of a successful social sciences program that includes staffing ($0.6 
million and 7 FTE); data collection ($0.5 million); and research 
activities ($0.4 million). In combination, the funding will be used to 
continue addressing shortcomings in economic and social assessments of 
policy alternatives by improving the economic and social science staff 
capability, and initiation of data and applied research programs.
    National Observer Program: NOAA requests an increase of $2.9 
million for a total of $17.0 million for the National Observer Program. 
Funding will be used to expand the collection of high quality fisheries 
and environmental data from commercial and recreational fishing vessels 
to assess impacts on marine resources and fishing communities and to 
monitor compliance with marine resource laws and regulations. This 
request will primarily provide for approximately 4,000 observer sea 
days spread over 11 fisheries, most of which are currently unobserved.
Management: $6.4 Million Increase
    NMFS National Environmental Policy Act (NEPA) Implementation: NOAA 
requests an increase of $3.0 million for a total of $8.0 million to 
continue striving to enhance its management of the NEPA process. This 
funding will provide NMFS with the necessary resources to continue to 
support agency-wide NEPA activities and will allow NMFS to strengthen 
its decision-making and documentation process to more fully take 
advantage of the decision making tools provided by NEPA.
    Regional Fishery Management Councils: NOAA requests an increase of 
$1.9 million for a total of $16.0 million for the Regional Fishery 
Management Councils. This request will provide needed resources for the 
Councils to respond to increased workload in developing, implementing, 
and supporting management measures to eliminate overfishing and rebuild 
overfished stocks; identify and protect essential fish habitats; reduce 
fisheries' bycatch to the maximum extent practicable; minimize the 
impacts of fishing regulations on fishing communities; and to implement 
programs that result from the next reauthorization of the Sustainable 
Fisheries Act. These results will be achieved through the development 
of amendments to and creation of new Fishery Management Plans and 
regulations and corresponding and supporting international management 
measures to control fishing activities.
    Statutory and Regulatory Requirements: NOAA requests an increase of 
$1.5 million to provide for thorough, complete, and timely 
environmental and economic analyses to NOAA customers and for its 
recovery programs. Funds will support personnel in all NMFS regions, 
science centers and headquarters to conduct required data gathering, 
analysis, and document preparation to assess the impacts of human 
activities that affect protected species. These include the range of 
Federal actions, including management of marine fisheries. This funding 
will also support assessments of the environmental and socioeconomic 
impacts, costs and benefits of implementing conservation programs for 
protected species.
Enforcement: $9.7 Million Increase
    Enforcement and Surveillance: NOAA requests an increase of $4.3 
million for a total of $39.3 million to expand and modernize NMFS' 
fisheries and protected species enforcement programs. These programs 
include Alaska and west coast groundfish enforcement, protected species 
enforcement, state and local partnerships, specialized Magnuson-Stevens 
investigatory functions, community oriented policing and problem 
solving, and swordfish/Patagonian toothfish import investigations.
    Vessel Monitoring System (VMS): NOAA requests an increase of $5.4 
million for a total of $7.4 million for additional support and 
continued modernization and expansion of the vessel monitoring system 
(VMS) program. These resources will create a program which will monitor 
approximately 1,500 vessels and is readily expandible. VMS technology 
is an invaluable tool for modern fisheries management. It provides 
outstanding compliance without intrusive at-sea boardings, enhances 
safety at sea, and provides new tools to managers for real time catch 
reporting.
Climate Services: $36.2 Million Increase
    NOAA maintains a balanced program of focused research, large-scale 
observational programs, modeling on seasonal-centennial time scales, 
and data management. In addition to its responsibilities in weather 
prediction, NOAA has pioneered in the research and operational 
prediction of climate variability associated with the El Nino Southern 
Oscillation (ENSO). With agency and international partners, NOAA has 
also been a leader in the assessments of climate change, stratospheric 
ozone depletion, and the global carbon cycle. Our confidence in our 
recent El Nino prediction is based upon a suite of robust observing 
systems that are a critical component in any forecast.
    The agency-wide Climate Services activity represents a partnership 
that allows NOAA to facilitate the transition of research observing and 
data systems, and knowledge into operational systems and products. 
During recent years, there has been a growing demand from emergency 
managers, the private sector, the research community, and decision-
makers in the United States and international governmental agencies for 
timely data and information about climate variability, climate change, 
and trends in extreme weather events. The economic and social need for 
continuous, reliable climate data and longer-range climate forecasts 
has been clearly demonstrated. NOAA's Climate Services Initiative 
responds to these needs. The following are a few efforts supported by 
this initiative:
    Climate Change Research Initiative: NOAA request a total of $18M to 
study areas of scientific uncertainty and to identify priority areas 
where investments can make a difference. In line with recent 
recommendations by the National Academy of Sciences, the CCRI promotes 
a vision focused on the effective use of scientific knowledge in policy 
and management decision, and continual evaluation of management 
strategies and choices. Included in the CCRI, NOAA requests $4.0 
million to work towards the establishment of an Global Ocean Observing 
System that can accurately document climate scale changes in ocean 
heat, carbon, and sea level changes.
    Arctic Research: NOAA requests a total of $2.0 million in support 
of the Study of Environmental Arctic Change (SEARCH) to improve 
monitoring of the elements of the Arctic environment. NOAA's SEARCH 
activities are part of a coordinated interagency and international 
program, begun in response to evidence of an alarming rate of 
environmental change occurring in the Arctic. The SEARCH initiative 
will substantially increase understanding of long-term trends in 
temperature, precipitation and storminess across the U.S., with 
potential improvements in forecasting and planning for energy needs, 
growth seasons, hazardous storm seasons and water resources.
    University-National Oceanographic Laboratory System (UNOLS): NOAA 
requests a total of $2.5 million to outsource with UNOLS and other 
sources for ships in the Pacific to support long-time series research 
for Fisheries-Oceanographic Coordination Investigations (FOCI), VENTS, 
Oregon/Washington Groundfish Habitat and maintenance of the Tsunami 
moorings in the Gulf of Alaska and Pacific Ocean. The increase will 
enable NOAA to continue to meet research requirements in the Pacific 
Ocean, Gulf of Alaska, and Bering Sea utilizing time aboard UNOLS and 
other vessels.
    Climate Monitoring and Ocean Observations: NOAA requests an 
increase of $5.4 million for a total of $54.6 million to upgrade the 
laboratories that conduct climate research, which includes $0.6 million 
for purchasing equipment and improving the scientific activities that 
contribute to the long-term observing systems that directly support the 
President's Climate Change Research Initiative (CCRI) initiative. These 
observing systems are the Global Ocean Observing System (GOOS); the 
Global Air Sampling Network; and the Tropical Atmosphere Ocean (TAO) 
array which is the cornerstone of the El Nino/Southern Oscillation 
(ENSO) Observing System and other ocean observing systems.
Other Key NOAA Programs
    NOAA is constantly pursuing areas where the expertise of our 
researchers, scientists, and staff can contribute to solving problems. 
Therefore, NOAA has other key programs that respond to these 
challenges. They are Energy, Homeland Security, Ocean Exploration, and 
Coastal Conservation.
Energy: $8.7 million Increase
    Energy Initiative: As part of this initiative, NOAA requests a 
total of $2.0 million to support the establishment and implementation 
of a streamlined energy permit review process. This proposal responds 
to an Executive Order directing Federal agencies to expedite permits 
and coordinate Federal, state, and local actions needed for energy-
related project approvals on a national basis and in an environmentally 
sound manner. The goal of this request is to reduce, by 25%, the time 
required to adjust the permits of licensed energy projects/facilities. 
Currently, re-licensing of existing facilities takes 6-10 years. It is 
anticipated that the combination of regular re-licensing and permit 
adjustments to implement the new National Energy Policy will result in 
thousands of new actions for NOAA nationally.
Homeland Security: $23.1 million Increase
    On September 11, 2001, the Nation experienced an unprecedented 
attack on the World Trade Center and the Pentagon. NOAA immediately 
implemented its agency-wide Incident Response Plan, and was able to 
rapidly deploy critical assets, capabilities, and expertise to support 
response and recovery efforts. NOAA personnel in weather offices, 
satellite and remote sensing teams, hazardous materials units, marine 
transportation and geodesy offices, and fisheries enforcement teams 
provided a wide range of products and services.
    NOAA's response to the September 11 attacks was rapid and focused. 
However, the attack fundamentally altered the context of NOAA's 
incident response planning. The threats resulting from attacks on the 
nation may be different in nature, and larger in scale and scope. Thus, 
NOAA's Homeland Security efforts are focused on enhancing its response 
capabilities and improving internal safety and preparedness. NOAA is 
working quickly to improve its ability to coordinate emergency 
response, to evaluate its existing capabilities, and to identify 
products and services that will meet the challenge of new response 
realities. NOAA's Homeland Security activities are dedicated to 
advancing the coordinated efforts within the Department of Commerce, 
the Office of Homeland Security and assisting NOAA's many Federal, 
state, and local partners.
    In Fiscal Year 2003, a $23.1 million increase is requested to 
address the most immediately recognized areas of programmatic 
vulnerabilities to ensure the continuity of the most critical of NOAA's 
services and information products in the event of natural or man-made 
emergencies. Of particular interest to this committee is the increase 
for a Vessel Lease/Time Charter. NOAA's base resources will allow NOAA 
to continue assisting DOD in mapping and charting key port areas.
    Vessel Lease/Time Charter: NOAA requests a total of $9.9 million 
for a Vessel Lease/Time Charter. NOAA will initiate a vessel time 
charter to expand its hydrographic surveying capacity. While having the 
capability to operate throughout America's Exclusive Economic Zone 
(EEZ), initial emphasis during Fiscal Year 2003 will be in the Gulf of 
Mexico. Ninety five percent of America's non-NAFTA economic trade moves 
through the marine transportation system. Any interruption in the flow 
of goods through our nation's marine transport system yields immediate 
and dire impact to the national economy. Four of the top seven port 
areas are found on the Gulf of Mexico, including: (1) New Orleans and 
South Louisiana, (2) Houston/Galveston, (3) Port Arthur, TX and Lake 
Charles, LA; and (4) Corpus Christi, TX. The combination of high 
traffic, hazardous cargos and vessels operating close to the ocean 
bottom make waterways and ports particularly vulnerable to terrorist 
activities including those utilizing low technology mines. Requested 
funding provides critical survey data to directly enhance safety of 
mariners, passengers, and the national economy from threats both 
natural or human in origin.
Ocean Exploration: $14.2 Million
    NOAA requests a total of 14.2 million for Ocean Exploration. This 
program seeks to increase our national understanding of ocean systems 
and processes through partnerships in nine major voyages of discovery 
in Fiscal Year 2003. Ocean Exploration is investment in undersea 
exploration, research, and technology in both the deep ocean and areas 
of special concern, such as the U.S. Exclusive Economic Zone (EEZ), and 
National Marine Sanctuaries (NMS). The Ocean Exploration program 
consists of four key objectives: 1) Mapping the physical, geological, 
biological, chemical and archaeological aspects of the oceans, 2) 
Exploring ocean dynamics and interactions at new scales to improve our 
understanding of the complex interactions in this vital component of 
the planet's life support system, 3) Developing new sensors and systems 
for ocean exploration to regain U.S. leadership in marine technology, 
4) Reaching out in new ways to stakeholders to improve the literacy of 
learners of all ages with respect to ocean issues. Ten percent of all 
Ocean Exploration funds is used for education and outreach to teach 
America's school children and stimulate their interest on ocean 
sciences. The data and knowledge is also available to all researchers 
and the general public quickly so they may be better informed on ocean 
issues.
Coastal Conservation: $348.5 Million
    NOAA's coastal conservation activities are central to accomplishing 
the mission of environmental monitoring, and underscore a commitment to 
coastal, estuarine, and marine ecosystems. NOAA's activities are 
coordinated by Coastal Zone Programs; Marine Sanctuaries, Estuarine 
Research Reserves, and Marine Protected Areas; Coral Reefs, Habitat, 
and Other Coastal Conservation & Restoration Programs; and Pacific 
Salmon.
Coastal Zone Programs: $85.6 million
    Coastal Zone Management: NOAA requests a total of $75.6 million for 
Coastal Zone Management Activities. The purpose of the national Coastal 
Zone Management (CZM) Program is to maintain and improve the quality 
and utility of the Nation's coastal lands and waters through a national 
network of Federally-approved, coordinated, and supported state 
management programs that seek to maintain the balance between the needs 
of resource protection and coastal-dependent economic activity. These 
programs are state developed and implemented. The plans recognize the 
significance of coastal resources to our Nation's population and 
economy, and promote improved management of these important assets. 
Federal matching funds are provided as cooperative agreements to 
support state staff and community projects that address the broad 
spectrum of coastal management issues ranging from habitat conservation 
and protection of life and property from coastal hazards, to urban 
waterfront and port revitalization (Section 306/306A CZMA). The $75.6 M 
includes grants and administration.
    Nonpoint Pollution Implementation Grants: NOAA requests a total of 
$10.0 million for Nonpoint Pollution Implementation Grants. This 
investment will provide states with resources to reduce nonpoint 
pollution, the greatest single threat to coastal water quality. Coastal 
waters are increasingly impacted by polluted runoff. Symptoms include 
the impacts of Pfiesteria in coastal waters of the eastern seaboard, 
nutrient over-enrichment in the Gulf of Mexico, the loss of salmon 
fisheries in the Pacific Northwest and local closures of shellfish beds 
and beaches throughout the country. NOAA will provide grants to states 
with approved plans to address the causes of these and other symptoms 
of the degradation of our coastal water quality.
National Marine Sanctuary Program, National Estuarine Research 
        Reserves, and Marine Protected Areas: $75.0 million
    National Marine Sanctuary Program: NOAA requests a total of $45.6 
million for the National Marine Sanctuary Program. This continued 
investment will allow for upgrading support to the operating and 
technical capacity in the thirteen national marine sanctuaries. 
Congress has required NOAA to invest in providing adequate resources 
for the management and protection of existing sanctuaries prior to 
designating new sanctuary sites. Congress has called for sufficient 
resources for operational staff, facilities and equipment, effective 
implementation of management plans, enforcement, and particularly for 
site characterization including cultural resources and inventory of 
existing natural resources. The Fiscal Year 2003 increase will support 
implementation of management changes identified through the revisions 
of sanctuary management plans. These efforts will improve protection of 
important sanctuary resources, including coral reefs, endangered marine 
mammals, sensitive habitats, and significant cultural resources. NOAA 
will be implementing a comprehensive facilities plan that prioritizes 
needs and opportunities at individual sites for constructing sanctuary 
visitor centers, collaborative education projects, and operational 
needs. In order to help establish an appreciation of sanctuary 
resources by the public, the program will begin to construct a network 
of regional visitor centers.
    National Estuarine Research Reserve System: NOAA requests a total 
of $26.4 million for the National Estuarine Research Reserve System ( 
NERRS). NERRS (Section 315 CZMA) is a national network of estuarine 
protected areas representing the diverse biological and physical 
characteristics of estuarine systems of the United States. Reserves are 
owned and operated by state governments and serve as local, regional, 
and national sources of technical information and testing grounds for 
the improvement of coastal resource management. By the end of Fiscal 
Year 2003, it is expected that there will be 26 designated reserves in 
21 states and territories covering over one million acres of estuarine 
lands and waters, with one more site in the designation process. 
Supplementing or updating facilities at the 26 reserves will be carried 
out in conjunction with the development of system-wide construction 
plans. All construction activities are carried out based on the current 
needs for implementing core NERRS program and external opportunities 
for partnerships. The facilities and land of the reserves are owned and 
managed by the states in this Federal-state partnership.
    Marine Protected Areas (MPA): NOAA requests a total of $3.0 million 
for the Marine Protected Areas Program. NOAA's Marine Protected Areas 
Program, in coordination with the Department of the Interior, 
coordinates and shares information, tools and strategies, and provides 
guidance to enable and encourage Federal, state, territorial, tribal 
and local agencies in the exercise of their respective authorities to 
enhance the protection of marine protected areas.
Coral Reefs, Habitat, and Other Coastal Conservation & Restoration 
        Programs: $60.6 million
Coral Reef Programs: $28.2 million
    NOAA requests $28.2 million for its Coral Reef programs that impact 
the conservation, research, and monitoring of coral reefs. The NOAA 
Coral Reef Program implements priority actions identified by the U.S. 
Coral Reef Task Force's National Action Plan to Conserve Coral Reefs. 
NOAA is undertaking a series of activities to reduce human impacts on 
coral reefs and restore reef environments. We work closely with many 
external partners to ensure that resources and capabilities are 
utilized to improve coral reef management and protection, including 
mapping, monitoring, education and designation of marine protected 
areas. NOAA is also engaged in improving the understanding of coral 
reef ecosystems through environmental monitoring and predicting future 
change. Long-term in situ coral reef monitoring stations will provide 
information essential for sound management decisions, long-term 
planning, and important research. The data collected will allow for 
improved understanding of coral reef ecosystem response to changes in 
the physical environment, and prediction of coral bleaching. Lastly, 
NOAA has developed a Coral Reef Watch Program. The programs focus is to 
(1) transition existing experimental satellite reef health monitoring 
capabilities into a viable operational capability, to (2) formalize the 
existing U.S. leadership in the emerging global ``Virtual Coral Reef 
Ecosystem Monitoring Laboratory,'' and, (3) provide for a solid 
scientific basis for future monitoring and assessment products/
capabilities.
Habitat Conservation: $22.4 million
    NOAA requests a total of $22.4 million for fisheries, and other 
habitat restoration programs. These funds will continue to support NOAA 
Restoration Center activities and the community-based restoration 
programs which provides seed money and links NOAA technical expertise 
to grass-roots restoration projects. This highly successful national 
effort encourages partnerships with groups outside of NOAA and 
regularly has leveraged appropriated funds by factors of five to six, 
and by as much as 10 to 1. These activities are a part of NOAA's 
strategic goal for sustaining healthy coasts.
Other Coastal Conservation & Restoration Programs: $10.0 million
    South Florida: NOAA requests $2.1 million for South Florida. The 
South Florida Initiative is an integrated effort among Federal, tribal, 
state and non-governmental partners to halt the degradation and restore 
the function of the South Florida ecosystem. Funding will support 
scientific investigations in the South Florida coastal ecosystem to 
better understand and restore the coastal areas as part of the overall 
restoration effort. When coupled with monitoring efforts, these 
investigations show the interactions between restoration efforts and 
oceanographic, atmospheric, geologic, hydrologic, and fisheries 
processes.
    Response and Restoration: NOAA requests a total of $3.7 million for 
response and restoration. NOAA fulfills the natural resource 
stewardship mandate of the Secretary of Commerce to protect and restore 
coastal resources by countering and responding to environmental threats 
and promoting sound coastal decisions. Environmental threats addressed 
include oil and hazardous material spills, hazardous waste sites, and 
contaminated sediments. NOAA also addresses activities that affect 
coastal environmental quality such as vessel groundings, coastal storms 
that mobilize contaminants, and port infrastructure development and 
maintenance to promote safe navigation.
    Estuarine Restoration Program: NOAA requests $1.2 million for the 
Estuarine Restoration Program. NOAA works with other partners to 
implement a national estuary habitat restoration strategy designed to 
ensure a comprehensive approach towards habitat restoration projects. 
NOAA's activities include the development of scientifically sound 
monitoring protocols and standards for coastal habitat restoration 
projects. In addition, NOAA is developing restoration databases that 
provide quick and easy access to accurate and up-to-date information 
regarding all projects funded under the Estuary Restoration Act of 
2000, as well as information on projects throughout the country that 
meet the standards established as a part of the Act for monitoring and 
data collection. This effort will provide scientists and resource 
mangers with information critical to successful estuary habitat 
restoration efforts.
    Cooperative Conservation and Recovery with States: NOAA requests a 
total of $1.0 million to provide funds to state partners under the 
Endangered Species Act Section 6 cooperative conservation program. 
These agreements will provide the means for states and local 
communities to undertake local initiatives in the management and 
recovery of ESA-listed and candidate species by providing the legal 
authority to make the decisions about how best to protect species at 
risk of extinction. The agreements would provide funding on a matching 
basis to accomplish conservation activities. Funding provided to the 
states would support local researchers, non-governmental organizations 
and volunteers to accomplish monitoring, restoration, science and 
conservation activities.
Pacific Salmon: $127.4 million
    Pacific Salmon Recovery: NOAA requests a total of $17.4 million for 
this program. This investment will provide for continued investment for 
the recovery of these species because the threats of extinction come 
from a variety of activities including fishing, hatchery operations, 
grazing, irrigation, and timber harvest.
Pacific Salmon Recovery Fund and Treaty: $110.0 million
    Funding at this level will allow the states and tribes to continue 
support for habitat restoration and protection, research and 
enhancement, monitoring and evaluation, and salmon recovery planning 
and implementation efforts. Fiscal Year 2003 funding for the Pacific 
Salmon Treaty at $20.0 million, along with a smaller amount in the 
State Department, will also capitalize the Northern and Southern 
transboundary funds at $75.0 million and $65.0 million respectively.
Sea Grant
    I have been asked to address the Administration's proposal to 
transfer funding for the National Sea Grant College Program from NOAA 
to the National Science Foundation (NSF).
    I would like to begin by explaining the Administration's proposal. 
The Sea Grant program plays an important role in marine and coastal 
research and is a cost-effective way to address new problems in marine 
research management. Under the Administration's proposal, the current 
Sea Grant structure would be replaced with a university-based coastal 
and ocean program modeled after the NSF centers, with input from 
researchers, educators and practitioners, through workshops. NSF will 
retain the Sea Grant College designation for qualified centers. The 
program will be open to all public and private institutions of higher 
education through a fully competitive process. NSF also has a lower 
matching requirement, so state and local funds will be freed up to 
address outreach and extension needs of local communities. NOAA will 
have a strong role in setting research objectives for the program. To 
ensure the program transfer does not adversely affect current awardees, 
NSF will transfer funds to NOAA to support the current award 
commitments through the duration of their grant period.
    Several studies of the Sea Grant Program have noted its 
effectiveness, as well as its problems. In 1994, the National Research 
Council (NRC) found that NOAA's Sea Grant Program has played a 
significant role in U.S. marine science, education, and outreach. The 
review's recommendations included better defining the roles of the 
National Sea Grant Office, the Sea Grant College programs, and the Sea 
Grant Review Panel, and streamlining the proposal review and program 
evaluation processes. Many of the recommendations of the NRC report 
have been adopted by the program and were also incorporated in the 1998 
Amendments to the National Sea Grant College Program Act. In a November 
2000 study, entitled ``A Mandate to Engage Coastal Users,'' a committee 
led by Dr. John Byrne of Oregon State University and the Kellogg 
Commission indicated Sea Grant has been effective in facilitating the 
Nation's sustainable development of coastal resources by helping 
citizens make better informed and wiser decisions. Twenty-two of the 30 
state Sea Grant Programs have undergone performance evaluations by 
teams of outside reviewers and Sea Grant peers. Sixteen were graded 
``excellent'' in achieving significant results. A program was graded 
``excellent'' if it produced significant results, connected Sea Grant 
with users, and was not found to need improvement in areas such as 
long-range planning and management. Sea Grant's 1999 Hammer Award-
winning program in seafood safety training and the national marina 
management effort are examples of other successful national programs.
    Through the years, a number of successful partnerships have been 
established between NOAA and the National Science Foundation (NSF), 
such as the Teacher-at-Sea Program, our partnerships with NSF on the 
U.S. Global Change Research Program and the U.S. Weather Research 
Program, as well as the Study of Environmental Arctic Change (SEARCH) 
program. And, NSF supports some applied research programs, such as the 
Small Business Innovation Research and Technology Transfer programs.
    The Administration's proposal to transfer funding for the Sea Grant 
Program from NOAA to NSF includes a decrease of 20 Full Time 
Equivalents (FTE) and $62.4 million in NOAA;$57 million would be 
requested by NSF. In this proposal, the current Sea Grant structure, 
which funds centers largely on a formula basis, would be replaced with 
a university-based coastal and ocean program. Under the proposal, 
Federal funding for the extension component of Sea Grant may be reduced 
and extension would not be administered by NSF. The details of the 
partnership proposal have not been finalized at this time, and we are 
working with NSF to ensure an appropriate role for NOAA. As noted 
previously, we expect NOAA will have a key role in establishing 
research priorities.
Conclusion
    NOAA's Fiscal Year 2003 Budget request invests in people, climate, 
energy, homeland security, infrastructure, and high priority research, 
science, and services. This budget maintains NOAA on its course to 
realize its full potential as this nation's premier environmental 
science agency. NOAA is also doing its part to exercise fiscal 
responsibility as stewards of the Nation's trust as well as America's 
coastal and ocean resources. And, in the same way that NOAA is 
responsible for assessing the Nation's climate, we are responsible for 
assessing and improving our management capabilities. NOAA will continue 
to respond to key customers and stakeholders, and will continue to 
leverage its programs and investments by developing those associations 
that most efficiently and economically leverage resources and talent, 
and that most effectively provide the means for successfully meeting 
mission requirements. Thank you for the opportunity to present NOAA's 
Fiscal Year 2003 budget.
                                 ______
                                 
    Mr. Gilchrest. Mr. Williams?

   STATEMENT OF STEVEN A. WILLIAMS, DIRECTOR, U.S. FISH AND 
 WILDLIFE SERVICE, U.S. DEPARTMENT OF INTERIOR; ACCOMPANIED BY 
MARSHALL JONES, U.S. FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT 
   OF INTERIOR; AND KENNETH STANSELL, U.S. FISH AND WILDLIFE 
              SERVICE, U.S. DEPARTMENT OF INTERIOR

    Mr. Williams. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before the Subcommittee to present the 
President's Fiscal Year 2003 budget request for the Fish and 
Wildlife Service. This is my first appearance before this 
Subcommittee, but I am advised that for many years, you have 
been a champion of the National Wildlife Refuge System and have 
advocated increased use, cooperative and partnership efforts in 
carrying out the Service's responsibilities.
    From that perspective, I am pleased to be here with a great 
deal of good news. The Service's Fiscal Year 2003 budget 
request totals nearly $2 billion, the largest ever. It stresses 
programs that provide direct financial and technical assistance 
to States, local communities, land owners, and conservation 
groups, including a new cooperative conservation initiative, 
and provides a major increase for the operation and maintenance 
of the National Wildlife Refuge System.
    There is a detailed explanation of all elements of the 
request in my formal statement and I will only highlight just a 
few examples.
    We are requesting nearly $377 million for the National 
Wildlife Refuge System for operations and maintenance, which is 
an increase of nearly $57 million above the Fiscal Year 2002 
enacted level and $76 million above the 2001 amount. These 
sustained increases are substantially enhancing wildlife 
protection and public use opportunities at our National 
Wildlife Refuges and address the Secretary's commitment to 
reducing maintenance backlogs as the system approaches its 
centennial in 2003.
    The request includes a $12 million increase for refuge 
operations, a $5 million increase to our highly successful 
Challenge Cost Share program, and $2 million for a new 
initiative for visitor facilities. It also includes an increase 
of approximately $31 million to reduce the number of deferred 
maintenance projects and fund other maintenance needs. We plan 
to maintain these increased funding levels for at least 4 
years, which would eliminate approximately $100 million of the 
maintenance backlog.
    I want to acknowledge and express my deep appreciation for 
the support this Subcommittee has provided to the refuge system 
over the years, both under Chairman Gilchrest and former 
Chairman Saxton. Your efforts have laid the groundwork for 
these proposals and I am hopeful we can build upon this in 
future budgets.
    The request also includes $283.9 million for programs 
assisting States, tribes, local communities, and land owners, 
including $50 million for the Landowner Incentive Grant 
program, $10 million for the Private Stewardship Grant program, 
$91 million for the Cooperative Endangered Species Conservation 
Fund, $43.6 million for the North American Wetlands 
Conservation Fund, $60 million for State and tribal wildlife 
grants, and $29.3 million for the Partners for Fish and 
Wildlife program.
    Also included is a proposal for a new flexible incentive-
based program to implement the Secretary's goal of conservation 
through cooperation, consultation, and communication. Half of 
the funds will be available to the Service and the other 
Interior agencies for projects of benefit to Federal lands and 
resources. The other half will be allocated to States through 
the National Park Service's Land and Water Conservation Fund 
State grants program.
    The Service is requesting $18 million to implement this 
initiative. A minimum of $5 million will be directed toward the 
refuge system Challenge Cost Share program and the remaining 
$13 million is available competitively to nearly all Service 
programs, including refuges.
    The Service plays a major role in implementing the Federal 
effort to prevent the introduction and to control the spread of 
invasive species. Our activities are conducted through our 
refuges, fisheries, Partners for Fish and Wildlife, and 
international affairs programs. We both address our own 
problems--invasive plants affect about 38 percent of refuge 
system lands in the lower 48 States--and we offer assistance to 
others. The overall Federal strategy is in the National 
Invasive Species Management Plan. Our budget request includes 
nearly $2.7 million within refuges, $2 million within the 
Partners for Fish and Wildlife program, $4.7 million within 
fisheries, and approximately $200,000 within the international 
affairs program.
    We are requesting a total of $125.7 million for endangered 
species programs, and this includes a $1.1 million increase for 
candidate conservation efforts and a $2.3 million increase for 
consultations, technical assistance, and habitat conservation 
plan efforts.
    For recovery of listed species, we enter into some budget 
speak. The request shows up as a decrease of $3.4 million from 
the enacted level. However, this is primarily due to the 
proposed discontinuation of earmarks, about which we have all 
heard, I think, quite a bit recently, and if the Congress 
accepts this, would actually result in a $2.5 million increase 
in funding for Service priorities.
    We are asking for an increase of $1.5 million for our law 
enforcement program. This will continue our efforts to 
strengthen the law enforcement program by filling current 
agency vacancies and providing funds to support enforcement 
activities for existing staff.
    We are requesting $94.8 million for the fisheries programs, 
a net decrease of $9.1 million below the Fiscal Year 2002 
enacted level. On an issue of concern to many members, this 
includes a net decrease of $1 million from the hatchery 
operations program in order to implement the Administration's 
management reform initiatives. I want to stress our continued 
commitment to work with Congress and all other stakeholders to 
determine how to apply this reduction and to address the future 
of the hatchery system.
    The land acquisition request totals $71.1 million, which 
would acquire approximately 49,000 acres of fee and easement 
interests.
    Lastly, we request $5 million for the Multinational Species 
Conservation Fund, in that, including $1 million for the 
Neotropical Migratory Bird Conservation program.
    Although this budget request was finalized prior to my 
confirmation, it is one I am proud to recommend to you. There 
are significant increases for important priorities and I urge 
the Subcommittee to support it.
    This concludes my remarks. I am accompanied today by 
Marshall Jones, Deputy Director Stephen Guertin, Cheif, 
Division of Budget, and by our Assistant Directors. I trust 
that between us all, we can fully respond to our questions. I 
would beg your indulgence on some of your questions as I am not 
fully up to speed with the entire budget, but I have folks who 
know this inside and out, so with your permission, I would call 
on them when I am stumped. Thank you.
    Mr. Gilchrest. Thank you, Mr. Williams. We all need 
somebody to call on when we are stumped or confused or out of 
sorts, so that is good. So all these people back here go to 
``Cheers'' after this hearing where everybody knows your name--
    [Laughter.]
    Mr. Gilchrest. --and they are going to stand behind you.
    [The prepared statement of Mr. Williams follows:]

   Statement of Steven A. Williams, Director, U.S. Fish and Wildlife 
                                Service

    I would like to take this opportunity to present the President's 
Fiscal Year 2003 Budget Request for the U.S. Fish and Wildlife Service 
to the House Appropriations Subcommittee on Interior and Related 
Agencies.
    The Service's Fiscal Year 2003 budget requests a total of $1.976 
billion, consisting of $1.316 billion in current appropriations and 
$660.1 million in permanent appropriations, and including $32.8 million 
for a government-wide legislative proposal to shift to agencies the 
full cost of the CSRS pension system and the Federal employee health 
benefits program. Excluding the legislative proposal, the Fiscal Year 
2003 budget for current appropriations is $6.9 million, slightly above 
the Fiscal Year 2002 enacted level. The 2003 request for the Resource 
Management account totals $903.6 million, $53.0 million above the 
Fiscal Year 2002 enacted level. Federal acquisition of land and 
easements from willing sellers is funded at $70.4 million, a decrease 
of $28.8 million below Fiscal Year 2002, which reflects a focus on 
existing lands and facilities and a transfer of the land acquisition 
planning function to refuge operations. The Construction account is 
funded at $35.4 million in accordance with the Department's five-year 
plans for construction and maintenance.
    The proposal to transfer to agencies the full costs of the Civil 
Service Retirement System and Federal Employees Health Benefits program 
will more nearly show the true costs of Federal programs, allowing 
managers to make decisions based on better cost information. This 
reform adds $32.8 million to the Service's 2003 current appropriation 
request. For comparability, the Service has estimated the amounts that 
this change would have added to the budget in 2001 (+$29.1 million) and 
2002 (+$31.9 million).
    The President's budget highlights programs that exclusively provide 
direct financial and technical assistance to states, local communities, 
landowners, and conservation groups, as well as three multi-bureau 
cross-cutting initiatives: the new Cooperative Conservation Initiative, 
and continued support for Pacific Northwest salmonid conservation and 
Everglades restoration.
financial and technical assistance to states, tribes, local communities 
                        and conservation groups
    The request includes $283.9 million in programs that exclusively 
provide direct financial assistance to states, tribes, local 
communities, landowners, and conservation groups, including $50.0 
million for the Landowner Incentive grant program; $10.0 million for 
the Private Stewardship Grant program; $91.0 million for the 
Cooperative Endangered Species Conservation Fund; $43.6 million for the 
North American Wetlands Conservation Fund; $60.0 million for State and 
Tribal Wildlife grants; and $29.3 million for the Partners for Fish and 
Wildlife Program, funded within the Resource Management account.
                  cooperative conservation initiative
    This will be a flexible, incentive-based program to implement the 
Secretary's goal of conservation through cooperation, consultation and 
communication. It will fund cooperative conservation challenge projects 
that seek to achieve the actual restoration of natural resources 
through innovative means or practices; the establishment or expansion 
of habitat for wildlife; or the collection of information which has as 
its purpose the conservation of natural resources or protection of 
wildlife. Half of the funds will be available to the Bureau of Land 
Management, the Fish and Wildlife Service, and the National Park 
Service for projects of benefit to Federal lands and resources. The 
other half will be allocated to states through the National Park 
Service's Land and Water Conservation Fund State Grants program.
    The Service is requesting $18.0 million to implement this 
initiative. A minimum of $5.0 million will be directed toward the 
National Wildlife Refuge System (which will build on its ongoing 
Challenge Cost Share program to prioritize proposals). The remaining 
$13.0 million is available to nearly all Resource Management programs.
    The Service, using its conservation grant program management 
experience and capability, will reach out to new constituencies and 
encourage innovative new conservation proposals under the CCI program. 
The CCI program will focus on citizen-centered natural resource 
stewardship and recognize innovative new ideas and expansion and 
replication of existing successful activities.
                pacific northwest salmonid conservation
    The Service requests an additional $3.7 million in our Resource 
Management account to carry out the Service's requirements for 
implementing the Reasonable and Prudent Alternatives for several 
biological opinions in the Columbia River Basin to address declining 
species such as bull trout, Kootenai white sturgeon, 12 salmon and 
steelhead populations, and others. The Service will continue to work 
with states, Federal agencies, tribes, and other stakeholders in the 
Pacific Northwest.
    This request will implement a broad range of activities, including 
instream flows, estuary protection and restoration, passage and habitat 
for bull trout, evaluation of hatchery reform plans, and completion of 
Section 7 consultations on many Federal actions. In total, $9.7 million 
will be available to implement the Service's responsibilities under the 
biological opinions.
               comprehensive everglades restoration plan
    The Service requests a total of $6.3 million to acquire lands at 
J.N. ``Ding'' Darling, National Key Deer, and Pelican Island National 
Wildlife Refuges to support the Comprehensive Everglades Restoration 
Plan (CERP), the most far-reaching and ambitious ecosystem restoration 
project ever undertaken in the U.S. The 30-year restoration effort is 
designed to restore the Everglades' hydrological and ecological 
functions, which have been seriously degraded by 50 years of flood 
control and drainage projects. We will work with the Corps of Engineers 
and other interagency partners to ensure ecosystem benefits consistent 
with long-term CERP project goals. These efforts, a major Service focus 
in South Florida, will restore habitat for wetland-dependent and other 
aquatic species; restore native aquatic species, recreational and 
commercial fisheries, and other aquatic resources. In addition, the 
Service's budget includes $3.4 million for CERP implementation and 
operating costs.
                           summary of request
Resource Management
    The Fiscal Year 2003 budget request for current appropriations 
totals $934.7 million including $31.1 million for a government-wide 
legislative proposal to shift to agencies the full cost of the CSRS 
pension system and the Federal employee health benefits program for 
current employees. Without the legislative proposal, the request is 
$903.6 million a net increase of $53.0 million.
    Ecological Services--The Service requests a total of $211.1 
million, a net decrease of $8.6 million below the Fiscal Year 2002 
enacted level (primarily due to elimination of one-time projects), but 
an increase of $1.3 million above Fiscal Year 2001, for Ecological 
Services programs:

        LEndangered Species--The Service requests a total of $125.7 
        million, $6,000 above the Fiscal Year 2002 enacted level and 
        $4.8 million above Fiscal Year 2001. The program funding will 
        support operations that enhance implementation of the 
        Endangered Species Act, including:

            LCandidate Conservation--The Service requests $8.7 million, 
            a $1.1 million increase over the Fiscal Year 2002 level. 
            The request includes a $1.5 million program increase to 
            support an additional 38 Candidate Conservation Agreements 
            (CCAs) with private landowners, states and local 
            governments, which will keep at least three species from 
            being listed. These agreements help better manage threats 
            to species and their habitat before they become critically 
            imperiled. Eighty-one CCAs have been completed and signed 
            as of December 31, 2001.

            LListing--The Service requests $9.1 million, which includes 
            a $77,000 increase for uncontrollable costs. This program 
            determines whether to list wildlife and plant species. If 
            listed, a species is protected under the ESA, including 
            prohibitions on taking the (e.g. killing or harming) 
            species. The budget continues the listing cap language and 
            the critical habitat sub-cap language as enacted in the 
            2002 appropriations act. In the 2003 proposal, funding for 
            critical habitat is set at $5.0 million, $1.0 million below 
            Fiscal Year 2002, to ensure additional resources are 
            available for new listings, critical habitat designations, 
            and responding to citizen petitions.

            LConsultation/HCP--The Service requests $47.8 million, an 
            increase of $2.3 million above the Fiscal Year 2002 enacted 
            level, to respond to the greatly increasing demand for 
            consultations, technical assistance, and habitat 
            conservation plan (HCP) permits.

            LA $2.0 million program increase will allow the Service to 
            review an estimated additional 2,000 actions for a total of 
            more than 77,000 actions. In addition, the Service will 
            finalize 75 new HCPs in Fiscal Year 2003. The President's 
            energy plan is expected to increase the consultation and 
            HCP workload as coal, natural gas, and oil resources are 
            developed. Also, in the section 7 program, the Bureau of 
            Land Management has identified approximately 70 management 
            units that require consultations on their Resource 
            Management Plans due to newly listed species, critical 
            habitat designations, or outdated plans. The Service is 
            also providing technical support in the development of 
            about 200 new HCPs as well as oversight and implementation 
            assistance for roughly 400 approved HCPs.

            LIn addition, as part of the $3.7 million Service-wide 
            increase for Pacific Northwest salmonid, the Service 
            requests $0.8 million to address consultation needs from a 
            variety of customers and ensure that the Service and other 
            Federal agencies are in compliance with Federal Columbia 
            River Power System Biological Opinions.

            LRecovery--The Service requests $60.2 million, a decrease 
            of $3.4 million below the Fiscal Year 2002 enacted level, 
            primarily due to discontinuance of one-time projects. The 
            request includes a $2.5 million program increase for direct 
            actions to stabilize at least 40 critically endangered 
            species that are on the brink of extinction, delist or 
            downlist 8 species whose status has improved, increase work 
            with partners to recover listed species, and complete the 
            recovery planning process for at least 50 species that lack 
            recovery plans.

            LActions that will stabilize these species and prevent 
            their extinction will be a priority. The emergency-listed 
            Columbia Basin pygmy rabbit has fewer than 50 individuals 
            in the wild in Douglas County, Washington. Preventing the 
            extinction of this species will require addressing threats 
            posed by disease, predation, loss of genetic diversity, and 
            loss of its sagebrush habitat. Another species on the brink 
            of extinction is the Mississippi gopher frog, once found 
            throughout the Lower Coastal Plain from Louisiana to 
            Florida, but currently only known from one pond in 
            Mississippi. Preventing the extinction of this unique frog 
            will require the restoration of ponds and surrounding 
            habitats and the reintroduction of frogs from the one 
            remaining population.

            LIn addition, as part of the $3.7 million increase for 
            Pacific Northwest salmonid, a $0.6 million program increase 
            will help the Service meet its obligations as set forth by 
            the Federal Columbia River Power System Biological 
            Opinions. These actions will further the recovery of bull 
            trout and Kootenai white sturgeon.

        LHabitat Conservation--The Service requests a total of $74.6 
        million for Habitat Conservation programs, $8.8 million below 
        the Fiscal Year 2002 enacted level, and $3.7 million below 
        Fiscal Year 2001, primarily due to the elimination of one-time 
        projects.

            LPartners for Fish and Wildlife--The Service requests $29.3 
            million, a net decrease of $7.3 million (primarily due to 
            the elimination of one-time projects) to continue this 
            highly effective program for voluntary habitat restoration 
            on private lands. The 16-year-old Partners program has 
            quietly worked with 27,000 private landowners through 
            voluntary partnerships to implement on-the-ground habitat 
            restoration projects across the country. The program 
            provides cost-sharing and one-to-one restoration expertise 
            to assist restoration of wetlands, grasslands, streams and 
            other habitats important to migratory birds, anadromous 
            (migratory) fish, and declining species. These habitat 
            restoration projects will enhance habitat for fish and 
            wildlife while recognizing the need to maintain profitable 
            agriculture, sustainable communities, and the nation's 
            overall quality of life.

            LProject Planning--The Service requests $30.9 million, a 
            net increase of $125,000 over the Fiscal Year 2002 enacted 
            level and $3.1 million above Fiscal Year 2001. The request 
            includes a $180,000 program increase to help facilitate 
            hydropower licensing activities in the Columbia River basin 
            while addressing the need to protect and conserve Pacific 
            Northwest salmonid species as part of the $3.7 million 
            Service-wide increase for Pacific Northwest salmonid. The 
            Service will only have this unique opportunity to 
            participate in the FERC relicensing of 45 dams in the 
            Columbia River Basin over the next several years and 
            include conservation measures in these relicensing actions 
            that will have an impact on the area for the next 30 to 50 
            years.

            LCoastal Program--The Service requests $9.7 million, a 
            decrease of $1.6 million below the Fiscal Year 2002 enacted 
            level (primarily due to the elimination of one-time 
            projects), but $0.3 million above Fiscal Year 2001, to work 
            with partners to protect public and private coastal lands 
            in 15 high-priority coastal watersheds. Maps, habitat 
            surveys, and grant application assistance are helping 
            communities plan and implement projects that balance 
            economic development and the protection of coastal 
            resources that make these communities desirable places to 
            live and work.

            LThe request includes a $180,000 program increase as part 
            of the $3.7 million Service-wide increase for Pacific 
            Northwest salmonid. The increase will be used to implement 
            actions in the Columbia River estuary identified in the 
            National Marine Fisheries Service Federal Columbia River 
            Estuary program, will restore tidal wetlands and improve 
            water quality to aid in rebuilding native aquatic species 
            populations in the lower 46 miles of the Columbia River.

            LNational Wetlands Inventory--The Service requests $4.7 
            million, a net increase of $18,000 over the Fiscal Year 
            2002 enacted level and $85,000 above Fiscal Year 2001, to 
            continue strategically producing maps and updated digital 
            resource information. Emphasis will be on areas of the 
            nation experiencing substantial developmental growth and 
            change. Contemporary habitat maps in digital format will 
            also assist in the planning for needed energy and 
            infrastructure development projects in a way that avoids 
            potential adverse effects on fish and wildlife trust 
            resources.

            LEnvironmental Contaminants--The Service requests $10.8 
            million a net increase of $201,000 above the Fiscal Year 
            2002 enacted level, and $135,000 above Fiscal Year 2001. 
            The request includes an additional $120,000 as part of the 
            $3.7 million Service-wide increase for Pacific Northwest 
            salmonid. The increase will be used to address requirements 
            of the Service and National Marine Fisheries Service 
            Biological Opinions on Operation of the Federal Columbia 
            River Power System.
    LNational Wildlife Refuge System: Fulfilling the Promise--The 
Service requests $376.5 million for National Wildlife Refuge System 
operations and maintenance, a net increase of $56.5 million above the 
Fiscal Year 2002 enacted level and $75.8 million above Fiscal Year 
2001. This increase will direct new resources toward enhancing wildlife 
protection and public use opportunities at our National Wildlife 
Refuges and address the Secretary's commitment to reducing maintenance 
backlogs as the system approaches its Centennial anniversary.

        LRefuge Operations--The request includes a $12.0 million 
        program increase for 96 refuge operations projects, including 
        base start-up costs on 13 recently established or expanded 
        refuges (refuges added to the system after the refuge 
        operations needs database was prioritized in 1999). The 
        Service's priority operating needs define wildlife and habitat 
        management critical to fulfilling the system's conservation 
        mission. Operations priorities also reflect a commitment to 
        provide the highest quality visitor programs called for in the 
        National Wildlife Refuge System Improvement Act of 1997. Refuge 
        operations include numerous activities that foster resource 
        stewardship, visitor services, refuge planning and support 
        throughout the system.

        LVisitor Facility Enhancement--The Service requests $2.0 
        million for a new initiative to reinforce our commitment to 
        refuge visitors through enhanced access to and quality of 
        outdoor experiences. Enhancements include construction and 
        maintenance of boat launches, observation decks, hunting and 
        photography blinds, trails, boardwalks and overlooks, fishing 
        piers, and informational signs and kiosks. All facilities would 
        be accessible to persons with disabilities.

        LComprehensive Conservation Plans--As mentioned above, the 
        Service requests a $1.0 million program increase to complete 
        CCPs at 11 stations and initiate CCPs at 6 stations. The 
        National Wildlife Refuge System Improvement Act of 1997 
        requires the Service to complete a Comprehensive Conservation 
        Plan (CCP) to cover every unit of the National Wildlife Refuge 
        System within 15 years of its passage (2012). To date, we have 
        worked with the states and local communities to complete 28 
        CCPs, covering 35 stations. Another 85, covering 166 stations, 
        are currently underway. In Fiscal Year 2002, we expect to 
        complete 32 CCPs, covering 68 stations.

        LCooperative Conservation Initiative--The Service requests a 
        $5.0 million program increase to allow the National Wildlife 
        Refuge System to build on its highly successful Challenge Cost 
        Share program through projects to further strengthen refuge 
        management by completing projects that benefit refuge lands 
        with state and local partners. In addition, the refuge system 
        is eligible to compete for the $13.0 million in CCI funds 
        requested within General Operations.

        LAcquisition Planning--In Fiscal Year 2002, the Service will 
        transfer $3.7 million from the Land Acquisition Management 
        Account to the Resource Management Account for land acquisition 
        planning. Of this amount, $0.5 million is for estimated cost 
        allocation methodology (CAM) charges and $3.2 million is for 
        staffing and related costs.
    Refuge System Centennial Maintenance--The Service requests a $30.7 
million program increase to reduce the number of deferred maintenance 
projects and fund other maintenance needs in order to ensure safe 
visits, protect wildlife, enhance habitats. Over a four year period, 
the Service would retire an estimated $100.0 million in deferred 
maintenance projects. This historically significant effort is the first 
major step for the refuge system Centennial.
    The refuge system requests funding for several bold, innovative 
programs that will provide savings to the government, greater 
accountability, economic benefits to local communities, and improved 
refuge facilities.

        LAnnual Preventative Maintenance--The Service requests a $0.5 
        million program increase for annual preventive maintenance to 
        prevent small maintenance problems from becoming deferred 
        maintenance projects; and a $2.0 million program increase to 
        ensure proper and efficient implementation of preventive 
        maintenance projects for those refuges piloting the Service 
        Asset and Maintenance Management System and Maximo software.

        LImproved Equipment Management--The Service requests a $.05 
        million program increase in the refuge system's new Equipment 
        Rental and Leasing Fund to preclude the purchase of costly 
        heavy equipment and benefit local economies, and a $0.5 million 
        program increase for a new Alternatively Fueled Vehicle Fund to 
        provide an incentive for refuge managers to purchase fuel-
        efficient vehicles.

        LDeferred Maintenance--The Service requests a $25.3 million 
        program increase to reduce the number of deferred maintenance 
        projects and improve our facilities and infrastructure, 
        including visitor centers, historically significant buildings 
        and on-site staff housing. The Service plans to complete over 
        $20.0 million in projects (i.e., fixing broken boardwalks, 
        repairing parking areas and roads, and providing trails) that 
        directly contribute to visitor access and enjoyment of refuges.
    Migratory Bird Management--The Service requests $28.3 million for 
migratory bird management, a net decrease of $0.3 million below the 
Fiscal Year 2002 enacted level, but $2.6 million above Fiscal Year 
2001. Program increases are primarily offset by the elimination of one-
time projects.

        LConservation and Monitoring--The request includes a $0.6 
        million program increase to determine band reporting and 
        harvest rates of waterfowl. Estimation of survival, harvest 
        rates, and reproduction rates is critical to the sound 
        management of waterfowl populations, and the estimate of band-
        reporting rates allows direct estimation of waterfowl harvest 
        rates in support of hunting programs. When actual harvest rates 
        are unknown or poorly estimated, a more conservative decision-
        making process occurs and consequently more restrictive 
        regulations are used than would be necessary if accurate 
        harvest-rate estimates were available.

        LPartnerships in Action: The North American Waterfowl 
        Management Plan--The Service requests a $0.4 million program 
        increase for the Joint Venture program. This successful program 
        protects and restores critical habitats for diverse migratory 
        bird species across all of North America, both on and to a 
        greater extent off Service lands. As of December 2001, Plan 
        partners have contributed approximately $1.5 billion to 
        protect, restore, or enhance almost six million acres of U.S. 
        wetlands, grasslands, forests, and riparian habitat, more than 
        one-third of the 17 million acres of U.S. habitat objectives 
        under the Plan. The Service and more than a thousand 
        communities, governments, nonprofit organizations, ordinary 
        citizens, Federal agencies in 49 states, and academia have 
        participated in this program to date.
    Law Enforcement--The Service requests $51.9 million, an increase of 
$1.5 million over the Fiscal Year 2002 enacted level and $2.3 million 
above Fiscal Year 2001. The request includes a $1.0 million program 
increase to provide additional core law enforcement capability for this 
program (refuge law enforcement is addressed within the National 
Wildlife Refuge System activity). The Service is actively strengthening 
the Law Enforcement program by filling current agent vacancies and 
providing funds to support baseline enforcement activities of on-board 
staff. This increase would enhance agent mobility through additional 
funding for investigative travel and vehicle operation essential to 
detecting, documenting, and deterring wildlife crime. The program 
continues to protect imperiled species worldwide by addressing a 
growing docket of wildlife crimes.
    Fisheries--The Service requests $94.8 million, a net decrease of 
$9.1 million below the Fiscal Year 2002 enacted level and $2.7 million 
above Fiscal Year 2001, to continue supporting activities that restore 
the nation's waterways, native aquatic species, and habitats. Program 
increases are offset primarily by the hatchery reform reduction and 
reductions to non-recurring projects.

        LNational Fish Hatchery System--The Service requests $50.0 
        million, a net decrease of $5.4 million below the Fiscal Year 
        2002 enacted level.

            LThe request includes a $1.0 million program decrease to 
            the Hatchery Operations program in order to implement 
            needed reforms to the system to help focus on the priority 
            restoration and recovery efforts. The reduction is 
            consistent with the Administration's management reform 
            initiatives. The Service will work with stakeholders to 
            determine how to apply this reduction.

            LIn addition, the Service requests a $0.7 million program 
            increase as part of a $3.72 million Service-wide increase 
            for Pacific Northwest salmonid. As an action agency under 
            the National Marine Fisheries Service draft Artificial 
            Propagation Biological Opinions, the Service will improve 
            fish propagation strategies for 12 species of salmon and 
            steelhead reared in hatcheries in the Columbia River Basin.

        LFish and Wildlife Management--The Service requests $44.8 
        million, a net decrease of $3.7 million below the Fiscal Year 
        2002 enacted level, primarily due to the elimination of one-
        time projects.

            LThe request includes a $1.1 million program increase as 
            part of the $3.7 million Service-wide increase for Pacific 
            Northwest salmonid. This funding will be used to restore 
            and recover aquatic species, increase efforts to enhance 
            instream flows and passage, restore habitat, and improve 
            water quality in the Columbia River Basin. The additional 
            funds will be used to monitor and evaluate salmon produced 
            at National Fish Hatcheries in the Basin to facilitate 
            reforms required under the National Marine Fisheries 
            Service draft Biological Opinions on Artificial 
            Propagation.
    General Operations--The Service requests $141.0 million, a net 
increase of $13.0 million above the Fiscal Year 2002 enacted level and 
$12.0 million above Fiscal Year 2001, for Central Office Operations, 
Regional Office Operations, Servicewide Administrative Support, 
National Fish and Wildlife Foundation, National Conservation Training 
Center, and International Affairs. The request includes a $13.0 million 
program increase to implement the Secretary's Cooperative Conservation 
Initiative as discussed above.

        LInternational Affairs--Within General Operations, the Service 
        requests $8.2 million for the International Affairs program, 
        $3,000 above the Fiscal Year 2002 enacted level and $37,000 
        above Fiscal Year 2001. The International Affairs program will 
        continue working with others to protect, restore, and enhance 
        the world's diverse wildlife.

        LStreamlining--The Service will implement $3.4 million in 
        across-the-board travel and moving cost reductions. Other 
        streamlining reductions include $0.8 million for elimination of 
        regional ecosystem coordinator positions and $0.45 million for 
        elimination of headquarters ecosystem coordinator positions and 
        consolidation of the Division of Civil Rights into the Division 
        of Human Resources.
                              construction
    The Fiscal Year 2003 request for current appropriations totals 
$36.2 million, including $0.8 million for a government-wide legislative 
proposal to shift to agencies the full cost of the CSRS pension system 
and the Federal employee health benefits program for current employees. 
Without the legislative proposal, the request is $35.4 million, a net 
decrease of $20.1 million below 2002.

        LConstruction Projects--The request includes $25.2 million for 
        15 dam safety, road and bridge safety, and other priority 
        projects at national wildlife refuges, fish hatcheries, and law 
        enforcement facilities, including dam and bridge safety 
        inspections. Rehabilitation and replacement projects will 
        address the most critical health, safety, and resource 
        protection needs in the Service's Five-Year Construction Plan.

        LNationwide Engineering Services--The Service requests $7.2 
        million to support the Nationwide Engineering, Seismic Safety, 
        and Environmental Compliance programs. The request includes a 
        $1.0 million program decrease for elimination of the Demolition 
        Fund.
                            land acquisition
    The Fiscal Year 2003 request for current appropriations totals 
$71.1 million, including $0.7 million for a government-wide legislative 
proposal to shift to agencies the full cost of the CSRS pension system 
and the Federal employee health benefits program for current employees. 
Without the legislative proposal, the request is $70.4 million, a net 
decrease of $28.71 million below 2002. This request would acquire 
approximately 49,347 acres of fee and easement interests. Major focus 
areas for 2003 include the Everglades ecosytem (J.N. ``Ding'' Darling, 
National Key Deer and Pelican Island NWRs in FL) and Baca Ranch (CO).
            cooperative endangered species conservation fund
    The Service requests $91,000,000 for the Cooperative Endangered 
Species Conservation Fund, $5,235,000 below the Fiscal Year 2002 
enacted level. The proposed funding level would provide $56,471,000 to 
support Habitat Conservation Plan Land Acquisition; $17,759,000 for 
Recovery Land Acquisition grants to help implement approved species 
recovery plans; $7,520,000 for traditional grants to states; 
and$6,650,000 for HCP planning assistance to states.
               north american wetlands conservation fund
    The Service requests $43.6 million for the North American Wetlands 
Conservation Fund, $60,000 above the Fiscal Year 2002 enacted level. 
This Fund protects and restores wetland ecosystems that serve as 
habitat and resting areas for migratory game and non-game birds, and 
supports non-regulatory private-public investments in the U.S., Canada, 
and Mexico.
    To date, nearly 1,750 partners have worked together on nearly 976 
projects in 48 states, the U.S. Virgin Islands, 13 Canadian provinces, 
and 24 Mexican states to protect, restore and enhance more than 8.7 
million acres of wetlands and associated uplands in the U.S. and Canada 
and benefit vital habitat on more than 25 million acres within Mexico's 
large biosphere reserves. This request is expected to generate 
approximately $295.0 million in total partner funds and resources and 
protect and enhance 953,500 acres of wetland and upland habitat.
                multinational species conservation fund
    The Service requests $5.0 million for the Multinational Species 
Conservation Fund (MSCF), $1.0 million above the Fiscal Year 2002 
enacted level. The Service requests a $1.0 million program increase for 
technical and cost-sharing assistance for neotropical migratory bird 
conservation under the MSCF. The Service will continue providing 
technical and cost-sharing grant assistance to African and Asian 
nations for conserving elephants, rhinoceros, tigers, great apes, and 
their habitats; and, begin providing funding to Western Hemisphere 
nations for neotropical migratory bird conservation.
    Many neotropical migratory birds, as well as African elephants, 
Asian elephants, rhinoceroses, tigers and great apes, are endangered 
species protected from take and trade by CITES and U.S. laws. The Fund 
provides successful, on-the-ground support to range countries for 
protecting at-risk populations, habitat and ecosystem conservation and 
management, applied research that includes surveys and monitoring, 
conservation education, protected area management, developing 
conservation action plans, and decreasing human-wildlife conflicts. The 
Fund also generates local matching resources from partners.
                     national wildlife refuge fund
    The Fiscal Year 2003 request for current appropriations totals 
$14.6 million, including $144,000 for a government-wide legislative 
proposal to shift to agencies the full cost of the CSRS pension system 
and the Federal employee health benefits program for current employees. 
Without the legislative proposal, the request is $14.4 million, level 
with 2002.
    There are no net increases above the enacted level for receipts 
from the sale of products, other privileges, and leases for public 
accommodations or facilities on the refuges. The Fiscal Year 2003 
estimate for payments to counties is $18.1 million. The Service 
estimates that refuge visitors contribute more than $400.0 million to 
local economies each year. These benefits will continue to grow with 
projected increases in visitation.
                    state and tribal wildlife grants
    The Service requests $60.0 million (including a $5.0 million tribal 
set-aside) for State and Tribal Wildlife Grants, the same as the Fiscal 
Year 2002 enacted level (the Fiscal Year 2002 budget provided new 
appropriations of $85.0 million, but rescinded $25.0 million in 
carryover balances for a net level of $60.0 million).
                        permanent appropriations
    In Fiscal Year 2003, receipts into the Service's permanent 
appropriations are projected to total $660.1 million, a combined $7.8 
million decrease from Fiscal Year 2002 deposits, to the following 
accounts: National Wildlife Refuge Fund, North American Wetlands 
Conservation Fund, Cooperative Endangered Species Conservation Fund, 
Recreational Fee Demonstration program, Migratory Bird Conservation 
Account, Sport Fish Restoration Account, Federal Aid in Wildlife 
Restoration Account, Miscellaneous Permanent Appropriations, and 
Contributed Funds. The major changes are:
    <bullet> LSport Fish Restoration Account--Receipts are expected to 
decrease by $18.6 million due to lower receipts from gasoline excise 
taxes on motor boats and small engine fuels and anticipated decreased 
interest on invested tax collections. Tax receipts and interest earned 
are available for obligation in the year following deposit into the 
Aquatic Resources Trust Fund.
    <bullet> LFederal Aid in Wildlife Restoration Account--Tax receipts 
available in Fiscal Year 2003 for Wildlife Restoration projects are 
expected to slightly increase by $9,300,000 above Fiscal Year 2002 
levels, and due to increased interest rates, interest earned is 
estimated to increase by $4.0 million. Tax receipts become available 
for obligation in the year following their deposit to the U.S. 
Treasury, although interest earned in the current year is available 
during the year in which it is earned.
  u.s. fish and wildlife service management reforms and activities to 
              implement the president's management agenda
    In August of 2001, the President released his Management Agenda to 
help rethink and reform the Federal Government. The President's vision 
for reform is guided by three principles: it should be citizen-
centered, not bureaucracy-centered; results-oriented; and market based. 
The President identified five government-wide initiatives to help 
achieve this vision:
    <bullet> LStrategic Management of Human Capital;
    <bullet> LCompetitive Sourcing;
    <bullet> LImproved Financial Performance;
    <bullet> LExpanded Electronic Government; and
    <bullet> LBudget and Performance Integration.
    The Service supports the President's Management Agenda and 
continues to create a citizen-centered organization by evaluating and 
implementing strategies to integrate budget and performance management, 
conduct workforce planning, competitively out-source with the private 
sector, and provide greater accountability to the American people. 
Approximately 8,736 full time permanent staff, supported by a volunteer 
force of 36,000, will work with others to conserve and protect fish, 
wildlife, plants and their habitats for the continuing benefit of the 
American people.
Strategic Management of Human Capital

        LAgency Restructuring--Although the Service's headquarters are 
        in the Washington, D.C. area, more than 80% of the workforce is 
        located in local communities across the nation at approximately 
        700 field stations (75% employ fewer than 10 employees) 
        supported by seven regional offices. The Service continues to 
        evaluate potential restructuring options to provide better 
        decision making and have more front line staff in direct 
        contact with the public. Specific actions included in this 
        budget request include a workforce planning study, a regional 
        and Washington office study, and divisional consolidations.

        LWorkforce Planning--The Service will address strategic 
        management of human capital through a comprehensive process 
        that provides managers a framework for making staffing 
        decisions based on our mission, strategic plan, budgetary 
        resources, and desired workforce competencies. A study is 
        currently underway to help develop this process.

        LRegional and Washington Office Study--The Service is analyzing 
        various aspects of its organization, including functions, 
        internal work processes and responsibilities. The focus is on 
        issues, problems and needs rather than a comprehensive 
        classical organizational assessment. This study involves a 
        review of Washington operations as well, with a particular 
        focus on the relationship to regional office issues.

        LStreamlining Consolidations--The Service has consolidated the 
        Division of Diversity and Civil Rights into the Division of 
        Human Resources to improve coordination and communication on 
        human resource issues of common interest to the offices, such 
        as diversity, recruitment, retention, student employment, and 
        workforce planning, and will achieve $250,000 in savings, 
        beginning in Fiscal Year 2003, from this move. In addition, the 
        Service will save $1.0 million through the elimination of 
        ecosystem coordinator positions. And, in ongoing efforts to 
        provide better service and have more staff in direct contact 
        with the public, the Service has already consolidated the 
        Juneau, Alaska, fish and wildlife office, the Panama City, 
        Florida, field office and the Klamath Falls, California, fish 
        and wildlife office and is preparing to consolidate two offices 
        in Fairbanks, Alaska.

        LComprehensive Human Capital Investment Strategy--The Service 
        will implement a comprehensive Human Capital Investment 
        Strategy to assess the current and future workforce skills 
        needed to deliver the Service mission.
    Competitive Sourcing--The Service has contracted with a GSA-
approved firm, Management Systems International, to review, evaluate, 
and make recommendations for the most appropriate delineations of 
Service positions with respect to those that are ``inherently 
governmental'' and those that could be considered commercial 
activities. It will include a listing that clearly shows the commercial 
activities positions in the Service, is consistent among regions 
regarding similar positions, and is versatile enough to apply to 
current OMB codes.

        LImproved Financial Performance--The Service continues to 
        strengthen its financial performance through the improvement of 
        financial management processes, particularly financial 
        transaction, cost recovery, and cost allocation processes. In 
        addition, the Service is ensuring similar progress on 
        electronic funds transfer payments and credit card payments. In 
        Fiscal Year 2001, the Service made 84% of its payments via 
        electronic funds transfer, an 8% increase over Fiscal Year 
        2000. The Service has achieved one of the highest on-time 
        credit card payment records in the Department and the Federal 
        Government as a whole.

        LBudget and Performance Integration--The Service has been 
        making continuous progress in linking performance goals to 
        program activities in our budget requests. As an initial step 
        to integrate the Service's performance structure with the 
        budget in Fiscal Year 2001, we adopted a strategy of 
        consolidating, aggregating or disaggregating the budget program 
        activities into component parts and applying performance goals 
        and indicators to those parts. The second step to better link 
        plans and budgets can be seen in our efforts to show the 
        performance consequences of requested levels of incremental 
        funding for each of the annual performance goals accompanying 
        the budget requests. Finally, important for the linkage of 
        budgetary resources to results to occur is the connection with 
        the base line of Service operations.
    This concludes my testimony. I will be pleased to answer your 
questions.
                                 ______
                                 
    [The Department of the Interior's response to questions 
submitted for the record follows:]

                       House Resources Committee

      Subcommittee on Fisheries, Conservation, Wildlife and Oceans

        U.S. Fish and Wildlife Service Budget Oversight Hearing

                  Questions and Answers for the Record

    Question 1. Does the Bush Administration intend to send to Congress 
its own legislative proposal to amend the Endangered Species Act?
    Answer: No, the Administration does not intend to send to Congress 
a legislative proposal to amend the Endangered Species Act. We prefer 
to work with Congress, building on past legislative proposals, to 
comprehensively review the Act and modify where needed to improve 
clarity and efficiency.
    Question 2. Why has funding for habitat conservation for endangered 
and threatened species been reduced by $8.7 million?
    Answer. The fiscal year 2003 President's Budget request for U.S. 
Fish and Wildlife Service (Service) operations totals $903.6 million, a 
net increase of $53.0 million over fiscal year 2002. The request 
redirects $28.0 million in unrequested projects from fiscal year 2002 
and reflects $12.6 million in administrative efficiencies, of which 
$7.0 million will be realized by absorbing fixed cost increases and 
$3.4 million by curtailing unnecessary travel and relocation costs. 
Within this total, increased funding reflects the Administration's 
priorities: the Secretary's Cooperative Conservation Initiative; 
National Wildlife Refuge system operations and maintenance; endangered 
species; Pacific Northwest salmon; and law enforcement and migratory 
birds.
    Within the operations account, the ``Habitat Conservation'' budget 
sub-activity of the ``Ecological Services'' budget activity has a net 
overall decrease of $8.7 million. This is the result of the request 
eliminating approximately $9.48 million in fiscal year 2002 
Congressional adds and pass-through funds; a reduction of $376,000 
related to travel; an increase of $710,000 associated with fixed costs; 
and a program increase of $360,000 for the Administration's Pacific 
Northwest Salmon initiative.
    Specifically, the budget eliminates $9.48 million in fiscal year 
2002 Congressional adds and pass-through funding identified below. 
These items were eliminated to enable the Service to pursue other 
higher priority activities; fish and wildlife issues addressed through 
these funding mechanisms will be supported to the extent possible 
through normal Service funding and priority setting processes. Many 
provide funding to non-government entities (those highlighted with an 
asterisk), and while they contribute to conservation efforts in 
general, they are not necessarily Service priorities Alternative 
funding sources are available for these organizations and programs, 
including the Service grant programs such as the State and Tribal 
Grants and Landowner Incentives programs, the Federal Aid in Wildlife 
and Sport Fish Restoration programs, and the Cooperative Conservation 
Initiative.
[GRAPHIC] [TIFF OMITTED] 78049.001

    Question 3. How much does the Federal government anticipate 
spending on ESA lawsuits in the current fiscal year?
    Answer: The costs for Endangered Species Act lawsuits are not 
tracked on a government-wide basis. In addition, it is difficult for 
the Service to provide complete or precise estimates of these costs. 
However, we can provide the expected spending on ESA section 4 listing 
and critical habitat litigation based on fiscal year 2002 allocations. 
In fiscal year 02, the Service allocated about $100,000 to each of our 
seven regions for costs associated with the management of the listing 
program in the regions, including litigation support costs. In 
addition, we allocated about $1.1 million for our Washington Office 
listing support, including program management, policy development, 
package review, and litigation support. While we do not track 
expenditure of these funds so closely to determine exactly the amount 
spent on litigation support, we expect that more than half of this $1.8 
million will be expended on litigation support.
    Of the $700,000 allocated to the regions, as much as $500,000 may 
be spent on litigation support. This includes reviewing court cases to 
recommend future actions; responding to notices of intent to sue; 
reviewing and preparing answers to complaints; drafting declarations; 
reviewing briefs; assembling administrative records; and participating 
in the development of litigation strategy. In fiscal year 2002, at 
least one region will devote an FTE as a dedicated position for 
litigation coordination. The percentage of the Washington Office 
allocation devoted to litigation support is lower, perhaps half. The 
Washington Office also has a dedicated position for listing litigation 
support, and participates in all the same kinds of actions as the 
regional offices, with greater emphasis on drafting and finalizing 
declarations and developing litigation strategy and approaches in 
response to court decisions and pending litigation. Combined regional 
and Washington Office litigation support costs likely exceed $1 million 
annually.
    In addition, this addresses only litigation support costs; it does 
not include costs required to implement court orders or settlement 
agreements. This year, the entire $6 million available under the 
critical habitat subcap will be spent complying with court orders or 
settlement agreements. We expect to spend at least $730,000 complying 
with court orders and settlement agreements for listing actions such as 
petition findings and final rules not covered under the critical 
habitat subcap. This amount could increase with additional court orders 
before the end of the fiscal year. While the impact is not yet fully 
understood, court orders for petition findings could increase 
considerably following a recent decision in the 9th Circuit Court of 
Appeals (Biodiversity Legal Foundation, et al., v. Badgley, et al., 9th 
Circuit, March 21, 2002).
    Question 4. How will the U.S. Fish and Wildlife Service spend the 
proposed $57 million increase for wildlife refuge maintenance?
    Answer. The National Wildlife Refuge system is funded at $376.5 
million, a $56.5 million or 18 percent increase over fiscal year 2002. 
Refuge operations funding is increased by almost $26.0 million and 
refuge maintenance funding is increased by almost $31.0 million. 
Details follow:
Refuge Operations (+$25.8 million)
    The request for Refuge Operations focuses on ``taking care of what 
we have'' by addressing critical operating needs and preparing for the 
2003 Centennial.
    <bullet> LImproving Stewardship to Wildlife and People (+ $12 
million)
       L$12 million request for 96 operational projects, representing 
the highest priority needs in the Refuge System and identified as such 
in the Refuge Operations Needs System (RONS). These priorities reflect 
a commitment to wildlife (+ $3.2 million), habitat (+ $4.4 million), 
people (+ $2.6 million), and recently established and expanded refuges 
(+ $1.8 million).
Cooperative Conservation Initiative (+ $5 million)
    The budget includes a minimum of $5 million for implementing the 
Cooperative Conservation Initiative on or adjacent to National Wildlife 
Refuges. This initiative will implement the Secretary's goal of 
conservation through cooperation, consultation and communication. 
Building on the Refuge System's successful Challenge Cost Share 
Program, we will work with a wide range of partners to implement 
innovative, community-based projects that restore natural resources and 
foster wildlife habitat.
    <bullet> LVisitor Facility Enhancements (+ $2 million)
       LThese projects combine construction of new visitor facilities 
such as duck blinds, visitor contact stations, and observation decks 
with the maintenance of existing facilities to improve visitor 
experiences.
    <bullet> LComprehensive Conservation Plans (+ $1 million)
       LThe budget includes a $1million increase to initiate and 
complete comprehensive conservation plans (CCPs) and help the refuge 
system meet its 2012 deadline for the completion of CCPs to cover every 
unit of the NWRS.
    <bullet> LOther Program Increases/Decreases (+ $5.8 million net)
       LThe budget request also includes an increase of $3.2 million 
for fixed pay costs, an increase of $3.7 million from an internal 
transfer for land acquisition planning, and a reduction in travel and 
transportation costs of $1.1 million.
Refuge Maintenance (+ $30.7 million)
    The Refuge System will ``take care of what we have'' by modernizing 
and improving our maintenance program to ensure safe visits, protect 
wildlife, enhance habitats, and support our commitment to commemorating 
a century of conservation. Regular care of the infrastructure, 
technology, and tools of professional wildlife stewardship is the 
essential foundation to future conservation efforts.
    The fiscal year 2003 budget requests funding for several bold, 
innovative programs that will increase accountability, provide economic 
benefits to local communities, and improve facilities. The following is 
a summary of the proposed fiscal year 2003 maintenance request:
    <bullet> LAnnual Preventative Maintenance
       L$2.0 million increase in annual preventive maintenance funds 
for those refuges implementing the Service Asset and Maintenance 
Management Systems (SAMMS) and Maximo software and ensure proper and 
efficient implementation.
       L$500,000 increase for annual preventive maintenance projects on 
all refuges to preclude them from deteriorating and being added to the 
deferred maintenance backlog.
    <bullet> LEquipment Repair and Replacement
       L$500,000 increase to rent and lease equipment, which would 
offset the purchase of costly heavy equipment and benefit local 
communities.
       L$500,000 increase for an alternatively-fueled vehicle fund to 
provide incentives to managers for the purchase and use of fuel-
efficient vehicles.
    <bullet> LDeferred Maintenance
       L$25.2 million increase for deferred maintenance projects to 
reduce pending projects and improve facilities and infrastructure, 
which will increase total annual funding for projects to over $60 
million.
       L$2.0 million increase for implementation of the SAMMS and 
Maximo software.
    Question 5. The refuge maintenance backlog has been reduced from 
$886 million to $663 million. What are your projections for the number 
of projects and total dollar amount of the refuge maintenance backlog 
that will remain at the end of FY 03?
    Answer: The refuge system deferred maintenance backlog as reported 
in the fiscal year 2002 budget justification was $831.0 million; 
however, this amount does not compare directly to the $663.0 million 
amount in the fiscal year 2003 budget justification. The $831.0 million 
amount from fiscal year 2002 also included $171 million for equipment 
repair and replacement. Changes have been made to comply with new 
federal accounting standards which no longer categorize equipment 
repair and replacements as deferred maintenance. Therefore, the 
comparable number for deferred maintenance (facilities projects only) 
between the fiscal year 2002 budget request and the fiscal year 2003 
budget request are $660 .0 million and $663.0 million, respectively.
    The deferred maintenance backlog at the beginning of fiscal year 
2002 (the baseline for the fiscal year 2003 request) consisted of 
12,526 projects with a combined value of $663.0 million. The fiscal 
year 2003 request will complete 583 deferred maintenance projects with 
a total value of $62.5 million. This will reduce the backlog by that 
amount; however, new deferred projects are also being identified 
through condition assessments and a new database update will be 
assembled by about August 1, 2002.
    The Refuge System is currently developing the Five Year Plan with 
the Department, and will assemble fiscal year 2003 accomplishment 
information once this process is complete. It will be late October 2002 
at the earliest before the Refuge System will have a refined backlog 
number. The overall backlog is expected to grow substantially due to 
the Federal Highway Administration inventory of our road system entered 
in the database in fiscal year 2002 and to a change in the reporting 
process. We will be able to report backlog in the old process and the 
new process for comparison purposes.
    Question 6. It is the Subcommittee's understanding that the 
Wallkill River National Wildlife Refuge has recently completed its 
compatibility analysis. The Subcommittee has been advised that over 
2,300 comments were submitted supporting the use of the Galesville 
airport for model airplane enthusiasts. Are there any circumstances, 
any time, or any limited area within the Refuge that could accommodate 
model airplane users?
    Answer. The National Wildlife Refuge System Improvement Act of 1997 
(Act) provides a clear hierarchy of uses for the NWRS: (1) Wildlife and 
wildlife conservation, (2) compatible wildlife-dependent uses, and (3) 
all other uses. This legislation also directs the Service to ensure 
that other uses are compatible with the ``wildlife first'' mission of 
the system and the purposes of each refuge. A compatible use is that 
which, in the sound professional judgement of the Refuge Manager, will 
not materially interfere with or detract from the fulfillment of the 
NWRS mission and the purposes of the refuge. After public review as 
specified by the Act, a final Compatibility Determination (CD) is 
issued.
    The Service released the draft CD on model airplane flying and 
related competitive events at Shawangunk Grasslands NWR on November 26, 
2001. The final CD, approved on February 20, 2002, concludes that model 
airplane flying and related competitive events are incompatible with 
the purpose of the refuge and the mission of the NWRS.
    The Service completed a careful and thorough investigation of the 
impact of model airplane activities upon wildlife. During the 75-day 
period for public review of the draft CD, the Service received and 
carefully read more than 2,300 written comments. (Of these, 1,650 
comments were form letters; comments from the local area supported the 
Service position >2:1; and the Service position was supported by 32 
local and national conservation organizations).
    The Service conferred with state conservation agencies and the 
leading grassland bird researchers in the Northeast and completed an 
extensive review of the scientific literature. In fact, the final CD 
includes more than 50 citations from the ornithological literature. The 
Service consulted local experts on field identification of birds with a 
thorough knowledge of the history of bird populations at the site, 
balanced with the observations of model airplane enthusiasts across the 
country.
    Consequently, the Service found substantial evidence that this 
activity will yield direct and indirect negative impacts to the 
migratory birds of the refuge such as individuals walking through 
grassland areas to retrieve or launch model planes create a direct 
liability for grassland birds. While adult birds are fleeing or 
attempting to lure a perceived predator from their nests, their eggs 
and young are exposed to increased risk of nest predation and exposure 
to adverse temperatures. In fact, predation of eggs, young, and 
attendant adults occurs as a result of predators following scent paths 
and disturbed vegetation to the nest area. Further, modelers will 
unwittingly trample nests.
    The refuge is also an important site for migrant and wintering 
grassland birds. Thus, modelers traversing fields will inadvertently 
disrupt the feeding and resting activities of birds which are 
attempting to maintain the fitness necessary to complete long-distance 
migrations or survive the winter. Moreover, in-flight model planes will 
cause birds to flee the Refuge or deter birds from using the refuge at 
all times of the year. Small planes flown at low altitudes and 
unpredictable frequencies cause the most disturbance to wildlife. Also, 
the noise of radio-controlled planes can be heard over one mile away. 
(Model planes are used at airports to deter birds from using runways). 
The Service concluded that this activity will materially interfere with 
and detract from the purpose for which the refuge was established--
migratory waterfowl and protection and management of habitat for 
grassland dependent migratory birds and concentrations of wintering 
raptors.
    The Act defines six wildlife-dependent uses of the NWRS, including 
wildlife observation and nature photography. When determined 
compatible, these six uses become the priority general public uses of 
the NWRS, and are given priority in planning and management. Numerous 
refuge visitors, local bird clubs, and national wildlife conservation 
organizations have expressed concern over the ability of the visiting 
public to enjoy a quality, wildlife-dependent experience at the refuge. 
Further, the vast majority of comments received from people living near 
the refuge expressed support of the Service's position. Model airplane 
flying can be a positive family activity; however, the refuge cannot 
support all recreational uses. Model airplane flying and related 
competitive events could create a substantial disturbance to refuge 
visitors engaged in other public uses.
    The refuge is small (566 acres) and has no limited areas where 
model airplane activities can be accommodated. The noise generated by 
radio-controlled models is equal to or greater than the decibel level 
of a chainsaw or lawnmower, and can carry for approximately one mile, 
exposing wildlife and visitors to this noise throughout the refuge. 
Also, modelers have little control over free-flight planes. 
Consequently, these planes will land throughout the refuge, 
necessitating retrieval by modelers in areas occupied by disturbance-
sensitive wildlife such as northern harrier, short-eared owl, Henslow's 
sparrow, grasshopper sparrow, vesper sparrow, bobolink, and eastern 
meadowlark.
    In addition, there is no time period that model airplane activities 
can be accommodated. The refuge provides habitat for several species of 
rare and declining grassland bird species--including many of those 
listed above, like the northern harrier, upland sandpiper, short-eared 
owl, horned lark, Henslow's sparrow, grasshopper sparrow, vesper 
sparrow, and bobolink--that are sensitive to disturbance. These birds 
use the refuge during breeding, wintering, and both spring and fall 
migration seasons, that is, throughout the year. Further, the refuge is 
used by visitors seeking a quality wildlife-dependent experience 
throughout the year such as wildlife observation (birdwatching), nature 
photography; several comments from individuals concerned with 
disruption while hiking, cross-country skiing, or otherwise enjoying 
peaceful, quiet natural area.
    Question 7. What is the status of the completion of comprehensive 
conservation plans for each Refuge unit? How many have been completed? 
How many are underway and how many have not been commenced?
    Answer: By 2012, we need to complete Comprehensive Conservation 
Plans (CCP) for 551 national wildlife refuges (NWR) and wetland 
management districts (WMD). (This is the number of refuge units in 
existence at the time of passage of The National Wildlife Refuge System 
Improvement Act of 1997). As of September 30, 2002, we have worked with 
state and local communities to complete CCPs for 59 NWRs and WMDs, 
which represents 11 percent of our total workload. CCPs are currently 
underway on 172 stations; another 320 stations have yet to initiate CCP 
planning.
    The President's budget for 2003 requests an additional $1 million 
to complete or initiate CCPs. While the 2003 President's Budget stated 
that we would complete 32 CCPs in fiscal year 2002, a subsequent status 
assessment indicates that we would actually only complete 15 CCPs 
covering 24 stations in fiscal year 2002. We are unable to complete the 
remaining 17 CCPs in fiscal year 2002 because many of these planning 
efforts are of a complex nature and involve multiple stations, 
extensive public involvement, and the resolution of highly 
controversial issues. Hence, completion of these CCPs will occur in 
fiscal year 2003. Currently, we plan on completing CCPs for 42 stations 
(see attached list - Attachment 1).
    Question 8. What is the Service's budget for invasive species 
control within the Refuge system?
    Answer. The President's 2003 budget requests $3.717 million in 
dedicated funding for control of invasive species within the National 
Wildlife Refuge System, an increase of $1.023 million over 2002. In 
addition, the budget includes $18.0 million for the Service's share of 
the Cooperative Conservation Initiative. These funds are available for 
invasive species control and other natural resource restoration 
activities.
    Question 9. How much money has been set aside to remove non-native 
nutria at the Blackwater National Wildlife Refuge in Maryland?
    Answer: The fiscal year 2003 President's Budget request includes 
$498,000 to remove non-native nutria at the Blackwater National 
Wildlife Refuge in Maryland. This includes $299,000 of Refuge 
Operations Habitat Improvement funds and $199,000 from the Partners for 
Fish and Wildlife program to implement fiscal year 2003 management 
activities to begin removal of invasive alien nutria at the Blackwater 
National Wildlife Refuge (NWR) in Maryland. A portion of the Refuge 
Operations funds provided will be used to analyze the Blackwater NWR 
Pilot Program Data in fiscal year 2003 and determine the feasibility of 
eradication, and the requirement for additional funds from other 
sources in the future.
    Question 10: What is the justification for reducing spending for 
fisheries by $9.1 million?
    Answer: The budget includes $94.8 million for the fisheries 
program, a decrease of $9.1 million from 2002. Most of the reduction is 
attributable to elimination of unrequested earmarks ($10.4 million). 
Many of these reductions are pass-through grants to State and local 
communities that are more appropriately funded through 2003 grant 
programs such as the Cooperative Endangered Species Conservation fund 
or the State Wildlife and Landowner Incentive grant programs. Other 
earmarks establish levels of funding that the Service must allocate 
toward certain species-related efforts. These earmarks limit the 
Service's flexibility to allocate funds in a rational manner based on 
nationwide workloads.
    The 2003 request for fisheries also reflects: a $1.0 million 
program reduction in hatchery operations; $1.8 million for earmarks 
related to Pacific Northwest salmon recovery; a $387,000 travel and 
transportation reduction; and an increase of $848,000 for fixed costs.
[GRAPHIC] [TIFF OMITTED] 78049.002

    Question 11. How will this reduction affect the National Fish 
Hatchery System? How many hatcheries will be closed in FY 03? How many 
hatcheries will be transferred to the states and have any states 
expressed interest in obtaining title to a Federal fish hatchery?
    Answer. The National Fish Hatchery program is funded at $50.0 
million, including a net decrease of $5.4 million as detailed above. 
Hatchery operations are funded at $35.7 million, including a net 
decrease of $1.4 million and hatchery maintenance is funded at $14.4 
million, including a net decrease of $4.0 million. In general terms, 
most of these reductions are achieved by eliminating one time 
Congressional adds, though within the net decrease the hatchery system 
is slated to receive $0.7 million increase as part of the larger 
Pacific Northwest salmon funding package.
    The 2003 budget includes a $1.0 million general reduction to 
hatchery operations. The $1.0 million reduction will be allocated by 
increasing reimbursements from non-reimbursed, non-native fish for 
mitigation or by reducing production at these facilities ($711,000) and 
discontinuing channel catfish production ($289,000). Potential impacts 
on a hatchery by hatchery basis follow at the end of this answer.
    The Service has been working with its stakeholders to identify the 
appropriate role for the Service Fisheries Program in fish and other 
aquatic resource conservation.
    There are 10 National Fish Hatcheries that predominately produce 
non-reimbursed, nonnative fish for mitigation. Mitigation production 
programs at Jones Hole and Hotchkiss NFHs, which are currently funded 
by the Service, mitigate Bureau of Reclamation projects. The Service 
will work with the Bureau of Reclamation and the Department over the 
next few months to try to obtain cost recovery for this mitigation 
production. It is unlikely that full cost recovery will be achieved in 
fiscal year 2003, therefore, the Service and Bureau of Reclamation are 
currently reviewing management and funding options for operations and 
maintenance of these two hatcheries. As way of background, fiscal year 
2001 Service funds spent on mitigation production were $288,000 at 
Jones Hole NFH and $302,000 at Hotchkiss NFH, for a total of $590,000.
    The Service plans to end its catchable channel catfish production. 
Channel catfish production is not necessary to accomplish recovery 
goals for T&E species and ranks as a low priority based on the Service 
performance goals and priority objectives. Channel catfish are 
currently produced at six NFHs. Cessation of channel catfish production 
at Inks Dam NFH, which is the only hatchery that is predominately (81%) 
producing catfish, will place the facility in caretaker status and 
necessitate the transfer of the regional fish distribution truck, its 
operational budget, and one FTE to another regional facility.
    The Service plans to begin phasing out channel catfish production 
and placing Inks Dam in caretaker status in 2002. The Service estimates 
that 2002 costs associated with placing Inks Dam in caretaker status 
will total $400,000 (to move the fish distribution unit and associated 
FTE; potential moves or separation packages for the other FTEs; 
possible bumping of personnel; securing the facility; and moving other 
production programs). Funding will be reprogrammed from hatchery 
maintenance projects included in the Five Year Plan, under the 
Secretary's authorities to reprogram funding up to $500,000, and, after 
consultations with the Tribes. Specifically, the Service will reprogram 
from two fiscal year 2002 deferred maintenance projects at Inks Dam, 
including $323,000 to replace rusted drain valves and kettles in 13 
ponds and, $100,000 to replace fencing.
    Discontinuing catfish production may affect one FTE at Tishomingo 
NFH. Catfish production at Harrison Lake, Genoa, Private John Allen, 
and Mammoth Springs NFHs is incidental and can be terminated with 
minimal effects on staff. A portion of the Service production of 
catchable channel catfish is provided to Tribes. Tribes affected by 
these proposals include the following at Tishomingo NFH (Chickasaw 
Nation 50 lbs., Choctaw Nation 115 lbs., Seminole Nation 40 lbs) and at 
Inks Dam NFH 22,000 lbs. to the Acoma, Fort Apache, Isleta, Jemez, 
Jicarilla, Navajo, San Carlos, Sandia, San Ildefonso, San Juan, Zia, 
and Zuni Indian reservations. The Service will consult with the 
affected Tribes to discuss how they could turn to other sources for 
catchable channel catfish, but, the Service will not buy the fish for 
the Tribes.
    Any remaining reduction that may be needed will be distributed 
across the 10 National Fish Hatcheries that predominately produce non-
reimbursed, nonnative fish for mitigation. These hatcheries include 
Willow Beach NFH (AZ), Neosho NFH (MO), Chattahoochee NFH (GA), Dale 
Hollow NFH (TN), Greers Ferry NFH (AR), Norfolk NFH (AR), Wolf Creek 
NFH (KY), Hotchkiss NFH (CO), Jones Hole NFH (NFH), and Leadville NFH 
(CO). Care will be taken to distribute the reduction in ways that will 
not adversely impact the Service's efforts to negotiate full cost 
recovery with the entity responsible for the federal water project 
associated with the mitigation production. Funding information related 
to hatcheries that may be impacted by the reduction follows:
[GRAPHIC] [TIFF OMITTED] 78049.003

    No states have expressed an interest in obtaining title to a 
federal fish hatchery and there are no plans to transfer Service 
hatcheries to states.
    Question 12. What is the current maintenance backlog for the 
National Fish Hatchery System?
    Answer: The current fiscal year 2002 estimated comprehensive 
maintenance backlog for the National Fish Hatchery System is $328.0 
million, with 38% in Resource Management needs and 62% in Construction 
needs. The program is conducting condition assessments as part of 
Department-wide efforts to improve the accuracy of the backlog 
estimates.
    Question 13. How many confiscated or forfeited items are currently 
stored at the National Wildlife Property Repository in Denver, 
Colorado?
    Answer. The National Wildlife Property Repository receives only 
forfeited and abandoned wildlife items and donates materials to 
appropriate public institutions for use in conservation education on a 
continuing basis. Approximately 300,000 items are currently stored at 
the Repository.
    Question 14. Does the Service anticipate the need for a second 
wildlife auction to free up space at the Wildlife Repository in FY 03?
    Answer. The Service plans to auction seized or forfeited wildlife 
items from the National Wildlife Property Repository in fiscal year 
2002 or 2003. Approximately 15,000 items are currently available for 
auction. These items represent an accumulation of common commercial 
products, such as boots, belts, paint brushes, and shell and coral 
products, made from species that can lawfully be sold.
    Question 15. In the current fiscal year, Congress appropriated 
money to hire twenty new special law enforcement agents for the U.S. 
Fish and Wildlife Service. What is the status of those agents and how 
many current special agents are enforcing our wildlife laws?
    Answer. The Service announced openings for new special agents in 
late February 2002, starting the selection process that will add 24 
officers to the Division of Law Enforcement. However, the court order 
that disconnected all Interior Department agencies from the Internet in 
early December 2001 forced us to delay announcing these positions until 
special arrangements could be made allowing remote utilization of the 
Office of Personnel Management's ``Quick Hire'' electronic application 
system.
    The volume of anticipated applications (last year's announcement 
saw more than 1,400 applicants) makes use of Quick Hire imperative 
since the system performs initial screening that reduces the number of 
applications that must be reviewed by the agency. We anticipate that 
our new agent class will report for basic training in September 2002.
    As of April 1, 2002, the Service has 215 special agents enforcing 
our national wildlife protection laws. This number includes 35 new 
agents hired in July 2001. Duty stations for Service special agents are 
located throughout the country and in Puerto Rico and Guam.
    Question 16. What is the extent of a bear viscera poaching problem 
in this country?
    Answer. The Service places a priority on investigating violations 
that involve unlawful commercialization of federally protected 
wildlife. Although black bear (the domestic species most frequently 
targeted for viscera) is not a federally protected species, Service 
special agents pursue cases involving bear poaching and viscera sales 
when a federal enforcement nexus exists, such as illegal take of bears 
on federal lands or the unlawful sale of viscera in interstate 
commerce. These violations are investigated fully and referred to the 
appropriate court for prosecution.
    Most bear poaching investigations, however, are completed by state 
wildlife agencies and involve violations of state law. In many cases, 
crimes involving bear poaching and viscera trafficking fall outside of 
federal jurisdiction and the Service's investigative authority. The 
Service, therefore, cannot provide an accurate assessment of the full 
extent of the bear viscera poaching problem in this country.
    Question 17. What is the status of black bear populations in the 
U.S.?
    Answer. Recent surveys of state fish and wildlife agencies indicate 
the number of black bears is increasing in the U.S. Based on these 
surveys, the total number of black bears in the U.S. is estimated to 
range from 325,000 - 448,000. At least 41 states have resident black 
bear populations and it is likely that black bears are present at least 
occasionally in 44 states. Much of the black bear population is in 
Alaska, where the bear's population is estimated to range from 100,000 
- 200,000. The state of Washington, with an estimated population of 
27,000 - 30,000, supports the largest population in the contiguous U.S. 
Nine states, because of low populations, consider the black bear state 
protected, threatened or endangered. The Louisiana population is 
considered threatened under the federal Endangered Species Act.
    Currently 28 states have black bear hunting seasons. Approximately 
16,000 - 19,000 bears are harvested by hunters annually. Several states 
have over 1,000 bears harvested annually including Alaska, California, 
Idaho, Maine, Michigan, Minnesota, Montana, Oregon, Pennsylvania, 
Washington, and Wisconsin.
    After reviewing the state laws and policies pertaining to the U.S. 
native bear species, we believe the states are adequately managing our 
native bear populations. We are working with the state fish and game 
agencies to ensure continued coordination of and compliance with 
national and international regulations relating to bears. The long term 
management success for this species will have to address factors such 
as fragmentation of their population resulting from decreased habitat, 
poaching, and conflicts that arise from human-bear interactions.
    Question 18: Please provide the Subcommittee with a list of 
projects the U.S. Fish and Wildlife Service has underway with the 
National Fish and Wildlife Foundation?
    Answer: The list is attached. (See Attachment 2 and 3).
    Question 19: Does the Service support allowing members of the 
National Fish and Wildlife Foundation and their staff to travel as 
government employees when engaged in official business?
    Answer: The Fish and Wildlife Service supports allowing members of 
the National Fish and Wildlife Foundation and their staffs to travel 
using government travel rates as established by the General Service 
Administration. This would allow Foundation members and staffs to more 
effectively leverage their efforts with those of the Service.
    Question 20. It is our understanding that your solicitor's office 
has been examining this issue for months. Can you accomplish this by 
regulations, or will legislation be necessary to allow the use of 
government travel benefits by the National Fish and Wildlife 
Foundation?
    Answer: At the request of the Fish and Wildlife Service, the Office 
of the Solicitor, General Law Division, reviewed the status of the 
National Fish and Wildlife Foundation as it relates to government 
contract travel rates. The Solicitor has determined that the Foundation 
is not eligible for government travel rates based on the provisions of 
the Federal Property and Administrative Services Act of 1949. Under the 
Act, the General Services Administration (GSA) determines 
organizational eligibility for government contract travel; GSA has 
determined that Congressionally established foundations, including the 
National Fish and Wildlife Foundation, are not eligible. Also, under 
the 1949 law Congressionally established foundations are not defined as 
agencies of the United States, therefore they are not eligible to 
receive contract travel rates.
    Based on the Solicitor's opinion, we believe that legislation would 
be needed to establish the eligibility of the National Fish and 
Wildlife Foundation to receive government contract travel rates.
    Question 21. Describe the upgrades you are planning for the Clark 
Bavin Forensics Laboratory?
    Answer. The Clark R. Bavin National Fish & Wildlife Forensics 
Laboratory is the only full-service wildlife crime laboratory in the 
world. Its forensic scientists provide rapid necropsy aid, toxicology 
support, identification and comparisons of wildlife parts and products, 
and expert witness testimony for wildlife law enforcement agencies on a 
national and worldwide basis.
    Total funding for the project is $23.0 million. So far, $2.3 
million has been appropriated to date. The Administration's fiscal year 
2003 budget request includes $6.2 million, and the remaining $14.4 
million is included in the outyears of the Department's Five Year 
Construction plan.
    Laboratory specialists are currently performing potentially 
hazardous necropsy and toxicology work on approximately 300 animals per 
year even though the facility was not designed for such studies. The 
Laboratory is not allowed to receive several thousand potential 
submissions per year involving bio-hazardous blood and tissue samples 
because the building does not include laboratory space that meets U.S. 
Department of Agriculture and Center for Disease Control safety 
prerequisites for such work. Therefore, a new Level III Biological 
Containment Area which will address bio-hazard and chemical-hazard 
safety concerns has been proposed.
    In addition to a Level III Biological Containment Area, the planned 
add-on to the Forensics Laboratory will include a biologically 
controlled evidence receipt area, enhanced security at the front 
(public) entrance to the building, a modern 3-table pathology area, a 
training/conference room, an indoor test-firing range, an expanded 
morphology storage area, and enhanced/improved lab areas for 
morphology, genetics, and chemistry.
    These additions will enable Laboratory staff to work more safely 
with evidence samples that potentially could be contaminated, either 
naturally or deliberately (where the contamination may involve a 
virulent disease vector such as hoof and mouth disease, anthrax, HIV, 
or ebola); receive and assess evidence shipments in a ``triage'' manner 
within a controlled environment; receive and evaluate potentially 
aggressive visitors with greatly reduced risk to Laboratory personnel; 
conduct autopsies in a multi-level controlled environment within which 
an infected carcass or tissues can be safely isolated and destroyed; 
host conferences and training sessions within the lab without creating 
evidence and chain-of-custody concerns; safely and properly store a 
rapidly growing standard-specimen collection; and analyze ``unknown'' 
evidence items in a safer laboratory environment.
    The planned addition will enable Laboratory staff to work in a much 
safer, efficient, and effective manner. These upgrades will ensure the 
health and safety of scientists, technicians, and support personnel 
while expanding the facility's ability to analyze evidence and help 
wildlife law enforcement officers solve wildlife crimes and uphold 
wildlife protection laws.
    Question 22. How many paid volunteer coordinators are there within 
the National Wildlife Refuge System? Where are they located?
    Answer. There are 16 paid volunteer coordinators within the 
National Wildlife Refuge System. They are located at Anahuac NWR, TX 
(Texas Chenier Plain Complex); Arctic NWR, AK; Desert NWR Complex, NV; 
Forsythe NWR, NJ; Kenai NWR, AK; Minnesota Valley NWR, MN; Neal Smith 
NWR, IA; Ninigret NWRC, RI; Reelfoot NWRC, TN; Rocky Mtn. Arsenal, CO; 
San Francisco Bay NWRC, CA; St. Marks NWR, FL; Sand Lake NWR, SD 
(Physically located at Huron WMD); Stone Lakes NWR, CA; Upper 
Mississippi River NWFR, LaCrosse Dist., WI; and Wichita Mountains NWR, 
OK.
    Question 23. What is the status of the Service's agreement with the 
Midway-Phoenix Corporation on their concession arrangements of the 
island of Midway?
    Answer. In late January, 2002, Midway Phoenix Corporation (MPC) 
announced it would terminate its partnership with the Service at Midway 
Atoll NWR, citing ``overly restrictive regulation'' as the reason for 
their inability to succeed financially. The Service and MPC entered 
into a Settlement Agreement at no cost to either party, whereby the 
1996 Cooperative Agreement was terminated and MPC's activities on the 
island would cease on May 1, 2002. On April 12, 2002, the Service 
signed a six month contract with GeoEngineers to operate and maintain 
Midway's primary infrastructure. GeoEngineers began island operations 
on May 1, at the departure of the last MPC employees.
    Recently, the Service decided to extend contracts with GeoEngineers 
and American Airports until December 31, 2002, to operate and maintain 
Midway's infrastructure and airport facilities, respectively. An on-
site visit was provided to prospective bidders on September 21, 2002, 
and the Service issued a request for proposals, which were due in by 
October 8, 2002, for a long-term management contract at Midway Atoll 
NWR. Because Midway's facilities and strategic location are important 
to many governmental and non-governmental stakeholders, the Service and 
the Department of the Interior are working to establish cost-sharing 
agreements to defray operational costs.
    Question 24. How much does Midway-Phoenix Corporation owe the Fish 
and Wildlife Service and any other Federal agency or department?
    Answer. Under the terms of the no cost settlement agreement, Midway 
Phoenix Corporation (MPC) does not owe the Service any money. MPC 
removed all employees and ceased operations on the Island as of May 1, 
2002, when GeoEngineers took over operations of the primary 
infrastructure at Midway.
    We recently became aware of three bills covering the period of 
August 2000 to October 2001 totaling $62,766.87 from Defense Financial 
Accounting System (DFAS) that indicated that MPC did not pay for 
transportation of goods to Midway. We are aware that DFAS is in direct 
contact with MPC to receive payment of the $62,766.87. In the past, the 
Service has received bills from DFAS for military transportation costs 
incurred by MPC and passed them on to MPC for payment. These bills were 
not paid by MPC and DFAS withdrew funds from the Service's account for 
the unpaid amount. In October 2001, the Service deauthorized MPC's use 
of military transportation because they did not pay for these 
transportation costs.
    The no-cost settlement agreement enabled MPC and the Service to 
cleanly dissolve the relationship without either party trying to 
extract additional funds from the other for services rendered or 
supplies and equipment bought and used on the island. The alternative 
would have been a very contentious and potentially costly legal 
dispute. In effect, we believe the agreement was beneficial to the 
Agency and the U.S. Taxpayer.
    Although the Defense Finance Accounting Service did withdraw funds 
from the Service's account to cover shipping charges incurred by MPC 
prior to the no-cost settlement, no funds were withdrawn from the 
Service by DFAS after the no-cost settlement was finalized. In effect, 
MPC may still be responsible for outstanding shipping and 
transportation costs (the $62,767 identified in the above answer) if 
they have not yet reimbursed DFAS. In any case, this funding issue is 
between DFAS and MPC.
    Question 25. Describe for the Subcommittee, why the Service has 
requested to purchase 420 acres at the Quinault Indian Reservation in 
the State of Washington?
    Answer. The request for funds to purchase 420 acres on the Quinault 
Indian Reservation in Washington State emanated from a Conservation 
Agreement between the Department of the Interior, the Quinault Indian 
Nation and the Trust for Public Land to purchase perpetual conservation 
easements over timberlands to protect the threatened marbled murrelet. 
The agreement was signed in July 2000, and the Department agreed to 
seek funds for the acquisition of timber easements over 4,207 acres of 
land on the Quinault Indian Nation. The U.S. Fish and Wildlife Service 
has requested $5 million from the Land and Water Conservation Fund to 
purchase a conservation easement on approximately 420 acres of timber 
lands.
    Question 26. How has the project been ranked in your LAPS list?
    Answer. The acquisition of easements on Quinault Indian Nation 
lands is not currently included in the Land Acquisition Priority System 
(LAPS).
    Question 27. What is the rationale for this land acquisition and 
with 3,722 acres remaining that Service indicates a desire to obtain, 
what is the total cost to the U.S. taxpayers to buy this property?
    Answer. In 1988, Congress enacted P.L. 100-638 to return 11,905 
acres of land known as the North Boundary Area to the Quinault Nation. 
Congress intended that these lands would provide a sound economic base. 
It was anticipated that timber harvesting in this area could provide 
significant revenues for land consolidation, ecosystem management, and 
economic development.
    On January 28, 1998, the Service issued a jeopardy biological 
opinion under the Endangered Species Act to the Bureau of Indian 
Affairs for a timber management plan proposed by the Quinault Indian 
Nation for the North Boundary Area. Much of the old-growth timber on 
the North Boundary Area was restricted from harvest under this opinion. 
Through negotiations, the Quinault Indian Nation and the Service 
identified 4,207 acres of second and old-growth timber, located on two 
blocks of land, that could be retained for marbled murrelet 
conservation, releasing the remainder of the timber on the North 
Boundary Area outside of the two blocks for harvest. A revised 
biological opinion dated August 25, 2000, established these two 
conservation blocks and allowed for timber harvest outside these areas. 
The Conservation Agreement between the Department of the Interior, the 
Quinault Indian Nation and the Trust for Public Land, states that the 
Department, and the Trust for Public Lands will seek and support 
funding of up to $50 million through federal appropriations and outside 
funding sources to acquire the easements on the total 4,207 acres. 
Easements on over 64 acres have been acquired to date with $1 million 
from the Landowner Incentive Grant received by the Service in fiscal 
year 2000.
    The Nation filed a lawsuit in July 2001 claiming $92.4 million in 
damages.
    Question 28. What is the rationale for the Baca Ranch acquisition? 
Why is this project not included in the LAP's network? What is the 
total cost to acquire this property?
    Answer: This acquisition has significant conservation value. Most 
of the wetlands are identified as Conservation Sites by the Colorado 
Natural Heritage program, and the biological diversity ranking for 
these wetlands is either Significant or Very Significant on a global 
scale. The San Luis Valley contains the largest and most important 
concentration of wetlands in Colorado. Wetlands on Monte Vista National 
Wildlife Refuge have been identified as very productive waterbird 
nesting wetlands. Valley wetlands provide habitat for myriad water 
birds, including the largest nesting colonies of snowy egrets, white-
faced ibis and black-crowned night herons in the state, and provide 
critical migration habitat for the entire Rocky Mountain population of 
greater Sandhill cranes. The San Luis Valley is a focus area for the 
Inter-Mountain West Joint Venture of the North American Waterfowl 
Management Plan.
    This acquisition is strongly supported by the local community, the 
Governor of Colorado, the Colorado Department of Natural Resources, the 
Colorado Division of Wildlife (CDOW) and the Rio Grande Water 
Conservation District. The CDOW supports inclusion of much of the Baca 
Ranch in the National Wildlife Refuge System, in part due to the 
potential for better elk management that National Wildlife Refuge 
status would offer.
    While the project was not ranked in the 2003 Budget's LAPS list, it 
is the number one priority of the National Park Service, and is a high 
Secretarial priority.
    The total cost of land acquisition under this Act is estimated to 
be $31.3 million dollars, to be funded by the Department of Interior. 
In fiscal year 2001, NPS obligated $8.2 million toward acquisition. Of 
the remainder, the expectation is that $14.4 million would be funded by 
the Service and $8.7 million by NPS, consistent with authorizing 
legislation requiring that certain portions of the acquisition be 
designated a National Wildlife Refuge.
    Question 29. Since Congress has never appropriated any money for 
the Wild Bird Conservation Act of 1992, would it be appropriate to 
repeal this law? Why or why not?
    Answer: Although specific appropriations have not been made for the 
Exotic Bird Conservation Fund established under the Wild Bird 
Conservation Act of 1992 (WBCA), specific funding was provided for 
implementing the remaining provisions of this law when it was first 
enacted. Since then, the Fish and Wildlife Service has received funding 
for WBCA activities under its broader line item for International 
Wildlife Trade. This law has been useful for bringing under control 
imports of wild-caught exotic birds into the United States which were 
previously considered to be unsustainable and detrimental to wild 
populations. The WBCA provides the opportunity for countries to export 
wild-caught birds to the United States as part of appropriate 
management of the species involved. The Service also has in place 
regulations under the WBCA that allow the import of birds for a variety 
of purposes, including for personal pets, breeding and display by 
zoological institutions, cooperative breeding programs of aviculturists 
and zoos, and research.
    Question 30. Describe the Comprehensive Everglades Restoration Plan 
for fiscal year ``03? What are you attempting to accomplish?
    Answer. The Comprehensive Everglades Restoration Plan (CERP) is a 
30-year restoration effort designed to restore the hydrology and 
ecological function of the Everglades, which have been gradually 
degraded over a period of 50 years of flood control and drainage 
projects. Home to 21 listed species and several million acres of a 
variety of tropical and subtropical wetland habitats, the Everglades is 
a unique and unparalleled component of the American landscape. This 
restoration effort extends from the Kissimmee River basin in Central 
Florida southward to Florida Bay and the Florida Keys.
    The Service has two primary responsibilities during implementation 
of CERP projects. One is the coordination and preparation of Fish and 
Wildlife Coordination Act (FWCA) reports on each CERP project. The FWCA 
report provides the views and recommendations of the Secretary 
regarding the conservation and enhancement of fish and wildlife 
resources for that project. The other half of the Service's CERP 
workload involves our responsibilities under the Endangered Species 
Act. At least 22 threatened and endangered species will be effected by 
CERP implementation.
    The section 7 consultations resulting from the CERP are complex due 
to the large geographical scope of these projects. They usually involve 
multiple species covering several physiographic regions and usually 
involve considerable trade-off analyses. Consequently, we anticipate 
utilizing a significant amount of Service staff to perform section 7 
analysis for CERP and work on the activities of South Florida Multi-
Species Recovery Plan. The Multi-Species Recovery Strategy is designed 
to address the recovery needs of the 68 federally-listed threatened and 
endangered species in south Florida inclusive of the Everglades, using 
an ecosystem-wide approach. This is one of the first recovery 
strategies specifically designed to meet the needs of the multiple 
species that do not occupy similar habitats. It is also one of the 
first designed to approach recovery by addressing the needs of entire 
watersheds: in this case the Kissimmee-Okeechobee-Everglades and the 
Peace-Myakka River watersheds.
    Other CERP activities that will involve significant coordination 
and review will be increased involvement of the Service's Division of 
Federal Aid in land acquisition and strengthening of the fisheries 
component of CERP. Coordination and review of land acquisition efforts 
are essential for successful CERP implementation, and remain a Service 
priority. Federal Aid conducts grant management of several federal land 
acquisition grants to State of Florida agencies as well as processing 
new grant applications, grant amendments, account and budget tracking, 
real estate overview, and monitoring of interim uses and program income 
on acquired lands. The South Florida Field Office, coordinating through 
Division of Federal Aid, will be involved in numerous environmental 
contaminant reviews, section 7 consultations under the Endangered 
Species Act, on-site inspections, and the preparation of documentation 
under the National Environmental Policy Act to ensure Farm Bill/
Everglades Restoration Appropriations are efficiently and prudently 
allocated. Through follow-up monitoring and coordination, the Service 
will also be actively involved in ensuring that all interim land uses 
prior to restoration will ultimately be compatible with the restoration 
goals for each individual parcel.
    The Service's Fisheries Program will also be a critical component 
in the development and implementation of the CERP. Restoring fish 
habitat, passage and water quality, and preventing, monitoring, and 
controlling aquatic exotic species will be key areas in this 
restoration effort. Fisheries will also focus on assisting National 
Wildlife Refuges with aquatic population survey needs, monitoring, 
water quality, and other fishery management activities. Additionally, 
Division of Fisheries will play a key role in assisting Ecological 
Services in the development of Fish and Wildlife Coordination reports.
    Question 31. The Fish and Wildlife Service in the Alaska Region has 
recently hired new staff to perform data gathering, analysis, and 
research in support of its subsistence management responsibilities 
under Title VIII of the Alaska National Interest Lands Conservation 
Act.
    However, the jobs the new staff is hired to perform are already 
performed by the State of Alaska. Moreover, the Service is filling 
these jobs with the State's own experts, who are lured by offers of 
high pay and benefits.
    This forces the taxpayer to pay for information already available 
for free. From Alaska's perspective, it causes an institutional brain 
drain jeopardizing the State's ability to collect and analyze 
information in support of its traditional fish and game management 
responsibilities.
        (A.) LUnder Title VIII of ANILCA, is the Service required to 
        perform non-decision-making functions that are already 
        available from the State of Alaska? Has there been a problem 
        obtaining fish and wildlife information from the State?
        (B.) LHas there been an analysis of how much it costs taxpayers 
        to duplicate functions already performed by the State?
        (C.) LHow many of the Service's employees hired to perform data 
        collection, analysis and research, formerly worked for the 
        State of Alaska in similar jobs? How much does it cost the 
        Service to employ them compared to what it cost the State?
        (D.) LHas the Service considered whether it might be more cost-
        effective to contract out certain functions with the State or 
        with Native entities, than to recruit its own staff, providing 
        that there is no effect on decision-making or enforcement?
    Answer: The Service does acknowledge and share the State of 
Alaska's concern regarding duplication of effort and have implemented 
the Federal Subsistence Management Program to avoid duplication with 
State programs to the greatest extent possible. When the Secretaries of 
the Interior and Agriculture were given responsibility for federal 
subsistence fisheries management in Alaska under Title VIII of ANILCA, 
they established a Fisheries Resource Monitoring Program to increase 
the range of information available for effective fisheries management. 
Rather than duplicate State programs, the Monitoring Program builds 
upon existing programs and expertise of state, federal, tribal, 
academic, and other entities within Alaska.
    All Monitoring Program project funds are awarded through a 
competitive process involving scientific review by a technical review 
committee consisting of three members from the Alaska Department of 
Fish and Game and one member each from the Fish and Wildlife Service, 
Bureau of Land Management, National Park Service, Bureau of Indian 
Affairs, U.S. Forest Service, and Office of Subsistence Management. 
This broad scientific review ensures that the highest quality projects 
are funded, and that efforts are not duplicated.
    In fiscal year 2001, the Departments of the Interior and 
Agriculture funded 74 new fisheries monitoring projects totaling nearly 
$8 million. All information collected by the Monitoring Program is 
shared between State and federal managers for the effective management 
of subsistence fisheries. The Monitoring Program is providing valuable 
stock status and harvest information for effective fisheries 
management, increasing tribal and local involvement, addressing 
fisheries issues and information needs identified by local users, 
minimizing fishery conflicts, and addressing regulatory actions.
    A federal/State Memorandum of Agreement was developed and initialed 
in early 2000 to address coordination and avoid duplication between 
federal and State programs involving subsistence management. The MOA 
promotes coordination and cooperation between the federal and State 
programs to effectively implement dual management. Currently six 
protocols are in various stages of development that further specify 
coordination regarding key areas of mutual federal/State interest. 
These include:
    <bullet> LSubsistence Management Information Sharing,
    <bullet> LYukon River In-season Fisheries Management,
    <bullet> LStatewide In-season Fisheries Management,
    <bullet> LRegulatory Coordination,
    <bullet> LFisheries Regulatory Management Planning, and
    <bullet> LSubsistence Use Amounts.
    (A.) Yes, the Service is required to perform non-decision-making 
functions. As mandated under Section 812 of ANILCA, the Service 
undertakes studies on fish and wildlife and subsistence uses on public 
lands, in cooperation with the State and other federal agencies. All of 
the required information and functions are not available through the 
State of Alaska.
    No, there have not been any problems obtaining fish and wildlife 
data from the State, and the Service uses this information.
    (B.) No. The Monitoring Program builds upon existing capabilities 
within Alaska and does not duplicate functions already performed by the 
State. New information is being gathered that the State has 
historically been unable to provide, and this information is being 
gathered in cooperation with State, tribal, federal, and rural 
entities. Each year an annual monitoring plan is developed, and all 
projects are reviewed by a scientific panel of three State and six 
federal scientists to ensure sound science and non-duplication of 
efforts.
    (C.) Since the federal government received responsibility for 
managing subsistence fisheries, the Service has filled 23 new permanent 
positions. These positions include:
     I. Develop and implement Monitoring Program (11 positions)
    II. Regulatory Management and Federal Subsistence Board support (5)
    III. In-season fisheries management (3)
    IV. Coordination between federal and state agencies (1)
    V. Intra-Service Coordination (1)
    VI. National Wildlife Refuge System management and support (2)
    Eight of these positions were filled with former State of Alaska 
employees, of whom seven were retired or planning to retire. The 
Service does not have the data to compare benefits of federal and State 
of Alaska employees; however, a recent study by the Alaska Department 
of Fish and Game found that starting federal salaries in Alaska are 
approximately 29% higher than starting State salaries for equivalent 
positions.
    (D.) Yes, the Service has considered the cost-effectiveness of 
contracting out certain functions related to subsistence fisheries 
management, and has contracted for most monitoring activities. In 
fiscal year 2001, the Service obligated $5.9 million toward data 
gathering, analysis, and research in support of subsistence fisheries 
management. Monitoring Program funds were allocated to the Alaska 
Department of Fish and Game (49%), tribal organizations (25%), Fish and 
Wildlife Service (18%), other federal agencies (6%), and academia/
private (2%). The Federal Subsistence Program also provides 
approximately $600,000 annually to the Alaska Department of Fish and 
Game through a cooperative agreement that funds coordination between 
federal and State programs and for data gathering, analysis, and 
research involving the wildlife program.
    In fiscal year 2002, the Service will implement a new Partners for 
Fisheries Monitoring Program by contracting seven fishery biologist and 
social scientist positions within tribal organizations to ensure local 
village involvement and collaboration in data gathering, analysis, and 
research in support of subsistence fisheries management. These field 
staff will assist with rural capacity building related to project 
development, project implementation, identification of subsistence 
issues, community outreach and education, training, and coordination of 
management and project activities. This program will be implemented in 
accordance with Section 812 of ANILCA to ``seek data from, consult with 
and make use of, the special knowledge of local residents engaged in 
subsistence uses.
    Question 32. The U.S. shrimp industry has demonstrated that the 
protection of sea turtle nesting habitat can have dramatic impacts. The 
Rancho Nuevo project in Tepahuajes, Mexico has shown that collaboration 
between industry and government (both USA and Mexico) can have amazing 
results. The Rancho Nuevo project may well single handedly bring back 
Kemp's Ridley sea turtle from the brink of extinction. Does the Service 
plan to continue supporting this important project?
    Answer. Working within its current budget, the Service plans to 
continue its long-standing support of the Rancho Nuevo project in 
Mexico, which is an important component of recovery efforts for the 
Kemp's ridley sea turtle. In preparation for the 2002 nesting season, 
in November 2001, the Kemp's Ridley Working Group met in Brownsville, 
Texas to discuss recovery projects. The working group includes 
representatives from the Service, National Marine Fisheries Service, 
U.S. Geological Survey, Texas Parks and Wildlife Department, U.S. 
shrimp industry, Gladys Porter Zoo in Brownsville, academia, and 
Mexico's Tamaulipas' State Government's Secretaria de Desarrollo Urbano 
y Ecologia. Recovery projects for 2002 include assisting Mexican 
agencies in locating, capturing, tagging, recording biological and 
ecological data, and releasing unharmed Kemp's ridley sea turtles while 
nesting and offshore of the coasts of Tamaulipas and Veracruz. As many 
turtle eggs as possible are transported to protected corrals and placed 
in human-made nests. Nests that cannot be moved are protected on the 
beach.
    Protection of sea turtle nesting habitat can have dramatic positive 
impacts, and industry has made significant contributions to this 
success. In addition to Rancho Nuevo, four other permanent camps 
operate at Boca Soto La Marina (La Pesca), Tepehuajes, Barra del Tordo 
(Playa Dos), and Altamira. Research camps located in Playa Miramar 
(Tampico), Tamaulipas, and in Lechuguillas, Veracruz, contribute 
significantly to conservation efforts. In the United States, the U.S. 
Geological Survey, Texas Parks and Wildlife Department, National Park 
Service, and other partners cooperate to conduct a program on North 
Padre Island to detect, document, investigate, and protect nesting 
Kemp's ridley sea turtles and sea turtle nests. The Service and Gladys 
Porter Zoo lead an effort to detect and protect nesting Kemp's ridley 
turtles and sea turtle nests on South Padre Island and Boca Chica 
Beach, Texas.
    Through the combined efforts of the shrimping industry, Gladys 
Porter Zoo, and the State of Tamaulipas, a pilot program has been 
developed to address egg poaching, a serious threat to the turtle. The 
pilot program has developed a new industry in the local community by 
creating a ceramics workshop. The workers are residents of the villages 
near the nesting beach of Tepehuajes. The village residents were 
trained by professors of the Universidad Autonoma de Mejico and were 
also trained in the operation of equipment necessary to produce high 
quality ceramics. The shrimping industry has also launched an effort to 
help the local community market these products in the United States and 
arrangements have been made to ensure that all profits are returned to 
the local artisans in Mexico. This approach provides the necessary 
incentive and an alternative revenue source for the community, thus 
reducing or even eliminating the threat of egg poaching at these 
critically important nesting beach. Once this pilot becomes 
established, it will serve as model for providing other local 
communities with an alternative source of revenue while recovering the 
Kemp's ridley sea turtle.
    Question 33: Recent reports have indicated that pollution, 
particularly plastics are having a devastating impact on endangered sea 
turtle populations. While the agencies seek to further restrict 
commercial fishing, are you addressing this other, even more 
significant impact?
    Answer: The Fish and Wildlife Service and the National Marine 
Fisheries Service have joint regulatory jurisdiction over sea turtles. 
The Fish and Wildlife Service has lead responsibility for regulatory 
activities affecting sea turtles on their nesting beaches and the 
National Marine Fisheries Service has jurisdiction over activities 
affecting sea turtles in the marine environment. Sea turtles are 
adversely impacted by a wide variety of human activities, including 
artificial lighting, environmental contaminants, commercial fishing, 
and beachfront development. The Service will continue to work jointly 
on sea turtle conservation. The National Marine Fisheries Service 
should be contacted for information about activities being undertaken 
to address marine pollution impacts on sea turtles.
    Question 34. In response to questions submitted at last year's 
budget hearings regarding potential civil rights, violations occurring 
during the execution of search warrants by Fish and Wildlife law 
enforcement agents, including but not limited to allegations that the 
subjects of the search were being held incommunicado, the Service made 
the statement that ``Individuals present during the execution of a 
search warrant may freely leave the premises.
    The Service has obtained documentation that this statement is not 
always the case. In fact, during a Subcommittee hearing on the 
implementation of the Wild Bird Conservation Act, Illinois Congressman 
Tom Ewing presented an account of the nightmare experiences of Mrs. Peg 
Bargon. At that time, he testified how his constituent and her rights 
were abused at the hands of USFWS agents investigating a dreamcatcher 
she had made and presented to then First Lady Hillary Clinton.
    Similar disturbing examples of improper detentions and conduct have 
been reported to the Subcommittee over the years. For instance, a pet 
store manager relates his experiences when USFWS agents came to seize a 
pair of black leopards that had USDA paperwork, but had been mistakenly 
imported into the state without USFWS documentation. ``At approximately 
10:30AM of Saturday April 30th, 1994, agents of the Department of the 
Interior dressed in DOI jackets entered Animal Kingdom. An agent, who 
did not identify himself to me, held up a folded piece of paper and 
stated that this was a warrant and that he was here to pick up the 
cats. These cats (black panthers) were already under their jurisdiction 
as per their request on April 26th. His words to me were, ``Are you 
going to give me any trouble?'' At this time I noticed that agents were 
telling the customers in the store to leave. I asked the agent if it 
would be all right to videotape the seizure of the cats. He replied 
absolutely not. I then asked if I could call Robert Hoffman the owner 
of the company. At this point I was forcibly made to lay down on the 
floor. My arms were bent behind me while an agent placed handcuffs on 
my wrists and made me lay face down. He stood over me and said I was 
under arrest for obstruction of justice. Other agents then rounded up 
all of the other employees. They closed and locked the store without 
giving me any reason for their actions. All this time an agent dressed 
in combat fatigues stood over me. I asked if all this force was 
necessary. He told me to shut up. After approximately 30 minutes of 
lying on the floor, an agent lifted me up. While still handcuffed, he 
made me walk in front of the other employees, who were forced to sit 
side by side on the floor along a fence in the back of the store. They 
were told not to say a word. I was instructed to sit quietly with them. 
After another 25-30 minutes, I asked if it would be possible to allow 
the employees to stand up and move around a little bit. The floor was 
hard and I could see that many of the younger employees were 
frightened. My request was ignored. We were forced to stay this way 
until the seizure of the cats was completed.
    Another search was conducted by Illinois USFWS agents on 5 May, 
1999, when agents executed a search warrant on a Chicago area 
physician, who relates the following: ``Armed Federal agents for F&W 
were there to execute a search warrant. They barged into my home and 
held myself and my wife at gunpoint. They then proceeded to wake each 
of my sleeping children with guns pointed in their faces. My home was 
searched and items seized, all the while my family was being held 
hostage by these agents.
    ``At one point during this ordeal, my wife requested to contact a 
lawyer. She was restricted from using the phone to do so, and was then 
threatened with arrest if she attempted to contact anyone.'' The 
physician was held at his home for a number of hours, and forced to 
cancel his appointments for the day while agents removed property from 
his home. (He has not yet been charged with as crime, nor has his 
property been returned to him.)
    ``441 FW 2, Investigative Activities'' reads: `` Service law 
enforcement officers must at all times zealously guard and defend the 
rights and liberties guaranteed to all individuals by the Constitution. 
Therefore, Service law enforcement officers must not engage in any 
investigative activity which could abridge in any way the rights 
guaranteed to a citizen of the United States by the Constitution and 
under no circumstances shall such employees engage in any conduct which 
may result in defaming the character, reputation, integrity or dignity 
of any citizen or organization of the United States.
    With that in mind, can the allegations depicted above be summarily 
dismissed without a proper investigation? Is the Service even aware of 
the recurrent allegations of overreaching enforcement activities, and, 
if so, what efforts have been made to curb excessive enforcement zeal? 
What is the necessity of awakening schoolchildren at gunpoint, and 
conducting searches of their school bags as they leave for their 
classes? Under what authority are individuals denied their rights to 
contact an attorney? When subjects of searches wish to leave, but are 
not allowed to do so by Service agents, are these agents acting within 
their legitimate law enforcement authority, or are they overreaching 
their bounds under the law? What sanctions has the Service instituted 
on agents found to have exceeded their authority under the law?
    Answer. The U.S. Fish and Wildlife Service reviews all complaints 
alleging the misconduct of Service officers. The Division of Law 
Enforcement requires that officers conduct their duties in a 
professional, courteous manner and ensures that each complaint is 
properly reviewed and referred to appropriate authorities for 
investigation when warranted. Officers who violate a person's civil 
rights can be found liable civilly or criminally or be disciplined 
through established Service procedures.
    During the execution of federal search warrants, subjects are 
normally allowed to contact an attorney and/or leave if they wish. When 
conducting searches, however, officers must make safety a priority and 
ensure the integrity of the evidence collection process. They must 
protect themselves and others from assault, control subjects who 
attempt to destroy evidence, and stop anyone from impeding an 
investigation.
    The Service received several complaints regarding the 1999 searches 
in Illinois. Service policy requires that complaints of this type be 
referred to the Department of the Interior Office of Inspector General 
(OIG). All information has been forwarded to the OIG. This criminal 
investigation is continuing; criminal charges have been filed against 
nine subjects in Michigan and Missouri. Four of these defendants have 
pleaded guilty to criminal charges, and additional criminal charges 
against several individuals from Illinois are expected.
    The subjects of the ``Animal Kingdom'' investigation pleaded guilty 
in federal court to violating federal wildlife laws. On May 2, 1994, 
the Service agent who led the investigation was contacted by a 
representative from Congressman Gutierrez's office, and on May 16, 
1994, the Service received identical letters about the case from 
Senators Paul Simon and Carol Mosely Braun. The Service responded to 
these inquiries by answering the questions presented and explaining the 
circumstances surrounding the investigation. The Service is not aware 
of any additional complaints regarding this case, and has not referred 
the case to the OIG.
    Complaints involving Mrs. Bargon, who was investigated for 
knowingly selling items containing feathers from protected birds, 
focused on the law and the restrictions placed on her business activity 
by the Migratory Bird Treaty Act, not on the conduct of Service agents. 
The Service received two letters complaining that Mrs. Bargon was 
unfairly prosecuted; this information was forwarded to the Assistant 
U.S. Attorney handling the prosecution. Mrs. Bargon later pleaded 
guilty in federal court to violating federal wildlife laws. The Service 
is unaware of any complaints concerning the conduct of the Service 
agents who handled this investigation and has not referred this case to 
the OIG.
    Question 35. In your answer to Question 41 from last year's budget 
hearing, you acknowledged that you had received complaints regarding 
the execution of a search warrant near Chicago in May of 1999. You 
further offered: ``The Service found nothing to substantiate any of the 
allegations of misconduct made against our agents.'' Please describe in 
detail the basis for this statement, and include, if available, any 
transcripts or notes pertaining to any interviews with the agents 
involved. Please also explain why the complainant or others involved in 
related searches were not contacted by the Service for their version of 
events?
    Answer. The U.S. Fish and Wildlife Service has received complaints 
regarding the execution of a search warrant near Chicago, Illinois, in 
May 1999. As explained above, Service policy requires that allegations 
of such misconduct be reviewed by the Office of the Inspector General 
(OIG). The Service fully supports the investigation of these 
allegations by the appropriate agency and has cooperated, and will 
continue to cooperate, with the Interior Department's Office of the 
Inspector General. That office has chosen to delay its administrative 
investigation until the criminal proceedings have been completed.
    Question 36. The Wild Bird Conservation Act was enacted in 1992. 
Since that date, the Service has been slow to enact regulations under 
that Act that would allow for sustainable aviculture programs in the 
United States. Last year, the Service reported that regulations for 
approving foreign captive-breeding facilities are still pending, and 
under review by the agency, almost a decade after enactment of the Act. 
Please explain the reasons for this inordinate delay, and detail 
Service plans to remedy this deficiency.
    Answer: The WBCA contains several provisions for allowing the 
import of exotic birds into the United States, including the issuance 
of specific types of permits, establishment of approved lists for both 
wild-caught and captive-bred birds, approval of sustainable-use 
management plans of exporting countries, and approval of foreign 
captive-breeding facilities. The Service has worked steadily to put 
into effect each of these provisions.
    In 1993, immediately after the WBCA became fully effective, the 
Service published regulations to allow the import of exotic pet birds 
by their owners as well as for breeding and display in zoos, 
cooperative breeding programs developed by private aviculturists, and 
research. We believed these provisions would have the most immediate 
and far-reaching effect on the public. For example, these regulations 
have resulted in the establishment of 20 cooperative breeding programs 
covering over 85 species. Soon thereafter we established the approved 
list of captive-bred species, which includes over 50 popular species of 
cage birds that are exempt from WBCA permits.
    We have recently solicited comments from the public for updating 
this list, to determine if additional species may be included. We also 
have regulations in place for the importation of exotic birds that are 
covered by sustainable-use management plans in their countries of 
origin. Regulations for approving foreign breeding facilities have been 
drafted and published for public comment, and we intend to finalize and 
publish them by this summer.
    Question 37. The Service has repeatedly stated that wildlife 
smuggling is second only to the illegal drug (or arms) trade, 
economically. What few funds appropriated for the WBCA, therefore, have 
been designated for law enforcement. The Service has used WWF 
allegations that as many as 150,000 parrots are smuggled annually 
across the Tex-Mex border to convince Congress to fund elaborate stings 
and enforcement actions that paint aviculture as riddled with crime.
    Since that 1995 hearing on implementation of the Wild Bird 
Conservation Act, has any effort been made to determine the extent of 
bird smuggling across the Tex-Mex border? Has there been any effort to 
facilitate communications with avicultural organizations to promote 
better understanding and cooperation between the avicultural and law 
enforcement communities? Please list examples of your outreach.
    In order to help us assess the true extent of any ``'smuggling '' 
problem, please provide a printout listing all birds (by number and 
species) seized at the Texas-Mexican borders from 1995 to present, 
their date and place of seizure, the names of those individuals they 
were seized from, what agency seized them, reason for seizure, and 
disposition.
    Answer. The Service maintains regular contact and communication 
with the avicultural community. For example, Service representatives 
conducted a question and answer session on WBCA issues at the annual 
meeting of the American Federation of Aviculturists in August 2001. 
Service staff have periodically participated in this outreach forum to 
promote better understanding and cooperation with the avicultural 
community. Additionally, Service representatives have participated in 
the annual meetings of the American Zoo and Aquarium Association (AZA) 
each year and usually attend the AZA's spring regional meetings to 
discuss wild bird conservation issues with that organization's avian 
interest group. Service staff last met with that group in the spring of 
2001 in Chattanooga, Tennessee. Service representatives also regularly 
meet with avicultural representatives at each Convention on 
International Trade in Endangered Species (CITES) Conference of Parties 
and CITES Animals Committee meetings as well as being available 
telephonically for questions.
    Three federal entities--the Service, U.S. Customs, and U.S. 
Department of Agriculture (USDA)--may seize birds protected under the 
WBCA at the border. Customs and USDA would typically seize birds for 
violations of laws enforced by those agencies (either the Customs 
smuggling statute, 18 U.S.C. 545, or USDA quarantine regulations). We 
have contacted both of these agencies to obtain data on bird seizures.
    In response to our request, Customs reported 126 incidents 
involving the seizure of live birds for violations of the smuggling 
statute (18 U.S.C. 545). Although Customs indicated that the majority 
of these incidents occurred at land border ports in California, several 
also took place at the Texas border crossings of Laredo and El Paso. 
Customs cannot, however, sort smuggled birds by species nor does its 
data identify the number of birds involved in each incident. One joint 
Customs/Service investigation, for example, involved the seizure by 
U.S. Customs of 655 birds protected under the WBCA.
    USDA is responsible for holding all imported birds (including 
smuggled specimens) in quarantine to prevent the introduction of avian 
diseases into the United States. Records from that agency, however, 
provide a log of birds processed by quarantine facilities and cannot be 
used to identify or quantify smuggled birds protected under the WBCA.
    Although the Service has not conducted an assessment to determine 
the extent of bird smuggling across the Texas-Mexico border, 
investigations by both regional Division of Law Enforcement personnel 
and the Division's Special Operations branch have revealed that 
incidences of bird smuggling have continued to occur not only in Texas 
but along the full expanse of the nation's southern border. Smuggling, 
however, is by definition a furtive crime and, as such, much of that 
trade goes undetected. The requested data on birds seized at the Texas-
Mexico border follows.
    Question 38. At last year's hearing, you reported that you had 
received an application to develop a sustainable use management plan 
for Amazona aestiva within its range in Argentina. What is the status 
of that application?
    Answer: This winter, the Department determined the specific federal 
action to allow U.S. imports of these Argentine wild parrots needed to 
undergo an environmental assessment (EA) under the National 
Environmental Policy Act (NEPA) before becoming final. The Department 
decided that an EA was required to solicit public input since the 
proposed rulemaking would be the first time approval of a sustainable 
use management plan for a country of export under the Wild Bird 
Conservation Act (WBCA) had been sought. It is hoped that the EA will 
be published by early summer and, if there are no insurmountable 
obstacles posed by the public to allowing such imports, the final rule 
to include this plan in the WBCA sustainable use management programs 
will be published in the fall. The Argentine nestling collection season 
is from December through January.
    Question 39. The Service occasionally has seized live animals, 
birds and reptiles from homes and in commerce. How long can the Service 
hold such animals without formally notifying the owner/importer, etc. 
of the nature of the charges or violations alleged against him, and/or 
the reason the animals are being detained? What liability does the 
Service have for the care and well-being of live animals it has seized 
without warrant, and without charges having been filed against the 
owner/importer? What is the time frame the Service must follow in 
filing charges subsequent to a seizure of a live animal? At what point 
must an animal be returned if no charges are filed against an owner?
    Answer. When animals are seized during the execution of a search 
warrant, the owner or consignee will be personally notified if present 
and provided a written receipt. If that individual is not present, a 
property receipt detailing the items seized is left on the premises.
    If animals are seized from an unaccompanied shipment, the Service 
mails a notification of seizure by registered or certified mail, return 
receipt requested, to the owner or consignee following the seizure. 
Such notification must state the time, place, and reason for the 
seizure and describe the seized wildlife or other property. If the 
Service seeks forfeiture of the property, the owner must be notified in 
writing within 60 days of the date of the seizure.
    If an owner believes that his/her property has been unlawfully 
seized, he/she may seek its return under Rule 41 of the Federal Rules 
of Criminal Procedure. This rule gives individuals ``aggrieved by an 
unlawful search and seizure or by the deprivation of property'' the 
right to file a motion for the return of their property with the U.S. 
District Court.
    The Service is responsible for the care and well-being of all 
seized wildlife. The Service places live animals with a qualified 
facility, zoo, or individual that can best provide appropriate care. If 
wildlife is to be returned to the owner and damages, injury, or loss 
has occurred, the owner may file a claim under the Federal Tort Claims 
Act.
    Federal wildlife violations have a statute of limitations of five 
years. The U.S. Attorney's Office sets the time frame for prosecutions 
after an investigation is completed.
    If no charges are filed, seized property is returned to the owner 
or consignee. The Service is not bound by any specific time constraints 
in this area; items, however, are normally returned as soon as 
practical after consultation with the U.S. Attorney's Office.
    Question 40. When must personal property taken during the execution 
of a search warrant be returned, if such materials are not materially 
relevant to a pending investigation, or do not constitute evidence of 
any crime (tax and other business records) after a request by the 
subject of a search? If the material is not timely returned, what 
responsibility does the Service or the individual agent/agents assume 
for the care or replacement of such goods?
    Answer. If items seized during the execution of a search warrant 
are not materially relevant to the investigation or do not constitute 
evidence of a crime, the Service returns these items as soon as 
possible. The Service is not bound by any specific time constraints; 
items are normally returned as soon as possible after consultation with 
the U.S. Attorney's Office.
    If a subject requests the return of items that are materially 
relevant to an investigation (for example, tax or other business 
records), every effort is made to produce copies in a timely manner and 
provide them to the subject. Such requests are processed in 
consultation with and under the guidance of the U.S. Attorney's Office.
    If owners believe that property has unlawfully been seized, they 
may file a motion for return of property with the U.S. District Court. 
Rule 41 of the Federal Rules of Criminal Procedure allows persons 
``aggrieved by unlawful search and seizure or by the deprivation of 
property'' to seek its return on the ground that they are ``entitled to 
lawful possession of that property.
    The Service law enforcement officer who seizes personal property is 
fully responsible for that property until he or she transfers it to 
another official and prepares a chain of custody form documenting that 
transfer of responsibility. Once a Service officer seizes personal 
property, he or she and the agency become responsible for the care, 
custody, and control of that property. The possibility that any item of 
seized property may have value as evidence requires that all seized 
property items be treated as evidence in terms of care, custody, and 
control.
    If damage or loss occurs involving property to be returned, the 
owner may file a claim under the Federal Tort Claims Act.
    Service officials and managers are responsible for ensuring proper 
care of seized property and preventing situations that may result in 
tort claims. They are also responsible for investigating and processing 
claims concerning property that was held within their area of control. 
Service officials and managers work closely with the Office of the 
Solicitor and the U.S. Attorney to resolve all claims filed against the 
Service.
[GRAPHIC] [TIFF OMITTED] 78049.004

[GRAPHIC] [TIFF OMITTED] 78049.005

[GRAPHIC] [TIFF OMITTED] 78049.006

[GRAPHIC] [TIFF OMITTED] 78049.007

[GRAPHIC] [TIFF OMITTED] 78049.008

[GRAPHIC] [TIFF OMITTED] 78049.009

[GRAPHIC] [TIFF OMITTED] 78049.010

[GRAPHIC] [TIFF OMITTED] 78049.011

[GRAPHIC] [TIFF OMITTED] 78049.012

[GRAPHIC] [TIFF OMITTED] 78049.013

[GRAPHIC] [TIFF OMITTED] 78049.014

[GRAPHIC] [TIFF OMITTED] 78049.015

[GRAPHIC] [TIFF OMITTED] 78049.016

[GRAPHIC] [TIFF OMITTED] 78049.017

[GRAPHIC] [TIFF OMITTED] 78049.018

[GRAPHIC] [TIFF OMITTED] 78049.019

[GRAPHIC] [TIFF OMITTED] 78049.020

[GRAPHIC] [TIFF OMITTED] 78049.021

                                 ______
                                 
    Mr. Gilchrest. Thank you, gentlemen, for your testimony.
    Admiral, many of us here still have very strong 
apprehensions about moving Sea Grant into the umbrella of 
National Science Foundation and we would like to continue to 
stay engaged with that process with the Administration as we 
work this reauthorization to the floor. You may not have all 
the ins and outs of this yet, but could you assure us or tell 
us specifically how the education and extension part of Sea 
Grant would work inside the National Science Foundation?
    Admiral Lautenbacher. I think it is premature for me to sit 
here and tell you exactly how it is going to work. The process 
that has been set up is for us to get together with NSF, with 
our experts and their experts, and talk through the process. So 
we would have to provide some of the expertise that we have to 
them and explain how it runs at this point, which we are 
beginning to do, and then see what the options were for 
providing this type of a service.
    We envision that while it can be managed from Washington, 
that it would largely fall to the local regions and the centers 
of excellence, the university centers of excellence that are 
pictured under the NSF scheme, to deal with this. But again, I 
think it is premature at this point to tell you because we do 
not have--I do not have the cookbook. I do not have the 
procedure to tell you at this point, but we will work with you 
and keep you informed as these deliberations progress.
    I assure you that I am a supporter of the program, which 
you know from my previous record. The Administration supports 
the program and wants the intent of it to continue. So I am 
committed to keep the Fiscal Year 2002 program working as it 
is, doing the good work and the good job, and I am committed to 
working with NSF to try to turn over a full-up program to them.
    Mr. Gilchrest. Could you give us a sense of the motivation 
for the move from the Administration? Is it to improve upon the 
science? Is it to improve upon the science and reduce or create 
more efficiency, get a better bang for your buck? What is it? 
Does it feel that the program now is lacking in its stated 
purpose?
    Admiral Lautenbacher. I think, and I hate to repeat myself 
as I did in other hearings, but there are pros and cons, 
certainly, to keeping it in NOAA and keeping it in NSF. So I do 
not want to sit here and say it is all black and white on 
either side. There are certainly advantages to both sides, and 
it started in NSF, came over to NOAA, and now--I think the 
Administration officials, and as it was reviewed through our 
system, took a look at what the NSF management structure could 
offer, which is it is the premiere university grant peer 
reviewed process, national process, recognized as such. It gets 
very high grades in terms of its efficiency, the numbers of 
people it takes to administer it.
    It already manages a fairly comprehensive geo-sciences 
basic research program, and, therefore, bringing this into it 
with the right kinds of focus--you would not want to lose the 
types of research that are ongoing now that are important to 
the States and our regions--that if you were to put that into a 
larger context, there might be some synergies both in the 
science and also more effective management. I think that was 
the major deciding factor in why this is submitted to you for 
transition to NSF.
    Mr. Gilchrest. We feel, and I thank you for that 
explanation. I think as we go through the process, we are not 
likely to authorize on a vote Sea Grant moving to National 
Science Foundation, and I do not know how all that is going to 
work out in the end, whether the Administration can do that 
through executive order, through its own in-house regulatory 
process, so there is going to be substantial resistance unless 
we, I guess, can be enlightened as to the benefits of it. But 
the extension agents now that work in the field feel to a large 
extent well appreciated, very independent, collaborative with 
the university State structure agencies, the private sector, so 
Sea Grant as it now exists seems to fit hand-in-glove to the 
needs of very diverse local communities and they do a fine job. 
To disrupt that without understanding fully all the 
ramifications and the consequences, to some extent, we are not 
really ready to accept.
    I did note in the budget that the Chesapeake Bay program 
NOAA office goes from $7 million down to $3-point-something 
million. I think we could probably go through the process and 
work out what the differences are, and you mentioned a number 
of different, very positive things that you are about ready to 
undertake. But that NOAA office has expanded what it has done 
in the past to begin a pilot program to understand how you can 
manage the fisheries from an ecosystem perspective, which has 
some extraordinary really positive ramifications for future 
fisheries management if you can do that. So we can work a 
little bit on bumping that up somewhat.
    The cooperative research that you mentioned, we want to be 
fully engaged in that process from the range, the size, to the 
genetic makeup and so on. We had a hearing in Ocean City a few 
months ago that dealt with the concept of cooperative research 
and some of the people from Woods Hole were down and we asked 
specifically for Woods Hole NMFS, NOAA, to be engaged in a 
study of black sea bass because there seems to be a great deal 
of controversy surrounding that and whether or not there are 
different stocks and different ranges at different times of the 
year, and a cooperative research effort in that area would be 
very positive.
    I will just end with two quick things. One is we passed out 
of the House the Estuary Restoration Act a couple of years ago. 
We authorized it. We do not have any real money for it yet. We 
are working on the Corps to put that in their budget. But we 
asked NOAA to develop and maintain a data base of information 
dealing with estuaries and I would like to know now or within 
the next couple of days from your staff about the status of 
that data base.
    Admiral Lautenbacher. I will be happy to provide that. I 
believe we are engaged in working on that right now. I will get 
you the status on that, Mr. Chairman.
    Mr. Gilchrest. Thank you.
    [The information referred to follows:]
                       Estuary Act Implementation
    Question: What is NOAA doing with the $1.2 million appropriated in 
fiscal year 2002 for Estuary Restoration Act (ERA) Activities?

    Answer:
    <bullet> LThe Estuary Restoration Act (ERA) specifically authorized 
$ 1.0M for NOAA to implement a monitoring database. We received $1.2M 
in fiscal year 2002 and requested level funding (no increase) in fiscal 
year 2003.
    <bullet> LUnder the Act, NOAA is required to develop standard 
monitoring protocols, and to track all estuary restoration projects 
meeting those protocols - not just limited to projects funded under the 
federal financial assistance program authorized by the ERA. This will 
enable the Estuary Habitat Restoration Council to track all acreage 
restored toward the million-acre goal of the strategy.
    <bullet> LThe monitoring protocols NOAA is developing under the ERA 
will have broad applicability to estuary restoration projects, helping 
to standardize the measurement of restoration success and ultimately 
providing a standard for selecting the most efficient and cost-
effective technologies for habitat restoration.
    <bullet> LBesides tracking acreage restored toward the million-acre 
goal, the restoration project database NOAA is developing under the ERA 
will provide a mechanism for coordinating restoration efforts within 
and between the public and private sectors.
    <bullet> LAccording to the ERA, the restoration project database 
must include project monitoring data and information on restoration 
techniques. It will therefore provide a publicly accessible tool for 
restoration practitioners to improve methods for assuring successful 
long-term habitat restoration.
Budget Summary:

    FY 02 Funding:
    $1.2M

    FY 03 Request:
    $1.2M

    Increase:
    $OM
Background:
    The strategy mandated by the ERA has a goal of restoring one 
million acres of estuary habitat by 2010. The strategy is primarily a 
mechanism for creating and maintaining effective estuary habitat 
restoration partnerships among public agencies and between the public 
and private sectors. The federal financial assistance program described 
in the ERA and its strategy is only one component of the effort 
required to meet the million-acre goal.
                                 ______
                                 
    Mr. Gilchrest. The last thing I would like to make a 
comment on is we are near the end game of our understanding of 
fisheries so that we can put together a draft proposal for the 
Magnuson Act, and there are just numerous things in there. We 
would like to know if the Administration is taking a position 
or will propose some changes to the Magnuson Act over the next 
few weeks that would be helpful for us to compare notes with 
them.
    One of the more controversial issues with the 
reauthorization will be marine protected areas, among IFQs, 
among bycatch, among essential fish habitat. So just about 
everything in there is controversial. But you mentioned a 
number of things about coral reefs, Admiral, and it seems to me 
the things that you mentioned about habitat restoration and 
coral reefs, et cetera, et cetera, fit into the guidelines of 
preserving and restoring some of those critical areas which 
could be earmarked--that is probably a bad term to use, but we 
could focus on coral reefs, kelp forests, grass beds, those 
kinds of things that we do recognize as essential fish habitat, 
come up with a pretty clear definition of that, and some of 
those areas could be defined permanently or temporarily, or 
even seasonally, as marine protected areas. So we would 
appreciate any input that the Administration has on those.
    We will have a second round and I will ask Mr. Williams 
some questions, but at this point, I will yield to the 
gentleman from Guam, Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman. I, too, want to 
echo your remarks on the Sea Grant program, the potential 
transfer of the Sea Grant program to NSF. I think, although 
undoubtedly NSF has a very excellent record with regard to pure 
research, many of us--my own background is in academia--make a 
pretty neat distinction between applied research and pure 
research. Sometimes, that is a little bit artificial, but in 
this instance, I think it works.
    By your own comments, Admiral, you indicated that we have 
basically with Sea Grant programs a three-legged stool. We have 
research, we have extension, and we have education. The three-
legged stool for Sea Grant works because all three legs are on 
the same stool, and if we take out one element of it, then we 
have a two-legged stool and I am not sure how that is going to 
work.
    The debate remains open on that, but I still have 
questions, and like the Chairman, I am not sure how this is 
going to work, what authority is going to be exercised in order 
to make this transfer occur.
    I will give a general question to both of you, both Mr. 
Williams and Admiral Lautenbacher. In a budget hearing, every 
budget hearing begins with a statement that outlines all of the 
things that are going to be increased. That is always a good 
statement to give in a budgetary statement. But, of course, 
there must be things that are not being increased or there must 
be things that are actually being decreased, and so it almost 
becomes a kind of a staff game to figure out, well, they moved 
it from here to there. It really looks like an increase, but it 
is really not an increase, or they are combining programs, or 
they are combining elements of programs in order to make the 
overall effort look like they are continuing to be sustained.
    So my question is, and we will start with you, Admiral 
Lautenbacher, inasmuch as you were basically working off the 
same numbers as we did last year and you have outlined that 
there are a number of increases in various parts of the NOAA 
budget, where are we not being increased? Or more specifically, 
what programs are experiencing a decrease?
    Admiral Lautenbacher. Let me try to describe that the best 
that I can. NOAA's budget is about, as we said, $3.3 billion. 
There is probably $300 million of change, so there is roughly 
10 percent of churn, budget churn, if you want to call it that. 
About half of that were these essential programs for people and 
infrastructure that I mentioned. So that is a piece of it that 
is on an up side, so to speak.
    On the down side of that is, of course, the $60 million or 
so for Sea Grant, which is probably the biggest single piece 
that went.
    Then when you break the rest of them down, you take the $60 
million out, the rest of them are broken down into programs 
that are either one term, one term additions that were made in 
last year's budget that are finished or some things that are 
continuing that as we looked at priorities and the budget level 
we had were not able to keep that same budget level.
    So I think if you look through our program and you look at 
the list of things--and it is a long list and we can provide 
the long list of changes. It is a long list of small changes 
that go beyond that $60 million that I mentioned. You will see 
that most of them, not all of them, can be covered in some 
other way. Now, you have to say, maybe that is more 
efficiently, maybe something is lost in the program. But there 
are--about 10 percent of our budget is in this churn process 
and that is the best way to describe it other than to go 
through actually a list of 100 or so individual cuts.
    Mr. Underwood. There are some specific programs that I want 
to draw attention to, but are you telling me that you could 
provide a list of those items and demonstrate--
    Admiral Lautenbacher. Certainly. We are happy to provide--
    Mr. Underwood. --and that would be a lot easier to read and 
a lot easier for us to comprehend.
    Admiral Lautenbacher. Yes.
    Mr. Underwood. It is the numbers and the resources that you 
put into programs is the best statement that any agency can 
make regarding what their priorities are.
    Mr. Gilchrest. Would the gentleman yield?
    Mr. Underwood. Sure.
    Mr. Gilchrest. Maybe we can include in that request the 
National Ocean Service was cut by $100 million, the National 
Marine Fisheries Service by $60 million, and the Office of 
Oceanic and Atmospheric Research by $80 million. So we would 
appreciate the--
    Mr. Underwood. Churning.
    Mr. Gilchrest. --the recognition that some of that money 
can be offset by other areas of NOAA.
    Admiral Lautenbacher. I will be happy to provide that and 
we will work with you and try to make sure everybody 
understands each of these items. I will say in general that we 
try to look at all the changes and inputs that were made to our 
budget and looked for ways to incorporate it in our lines so 
that they would not be subject to exposure or to arbitrary 
change. A lot of them did not fit or they were one-term types 
of things that were added and did not survive the priority 
scrub that is given as it goes through the Administration's 
process for building a budget. I would be happy to provide 
detailed lists in any categories. We can provide them in the 
Chairman's categories, as well.
    Mr. Underwood. Thank you. Mr. Williams?
    Mr. Williams. Yes, thank you. I will highlight a few that I 
did mention in my comments and a few that I did not.
    One was a reduction in our hatcheries program of $1 
million. We have eliminated ecosystem coordinators, one in each 
region and one in the Washington office, which totals about 
$795,000. We have a reduction of $112,000 across the board for 
travel expenses.
    In our land acquisition program, particularly in the 
refuges, there is a reduction there but an increase in the 
money available to attack the deferred maintenance backlog, and 
approximately $35 million in what we term as earmarked projects 
from last year that were not carried over.
    That is probably not all of them, but that gives you a 
sense of the major ones.
    Mr. Underwood. Could we just discuss hatcheries for a 
little bit?
    Mr. Williams. Yes, sir.
    Mr. Underwood. OK. What is going on with the hatcheries? I 
know that you have indicated you have cut $1 million from 
hatcheries, but is there the construction of hatcheries? Has 
that undergone a severe cutback, not just the operation of 
hatcheries? Can that distinction be made?
    Mr. Williams. There are no new construction projects going 
on with hatcheries. The $1 million reduction is coupled with an 
effort to improve the effectiveness and efficiency of the 
existing hatchery system.
    And if I can expand on that just a little bit, we are 
undergoing both an internal review with work groups looking at 
various components of the fish hatchery system itself and an 
external review. The external working group, steering 
committee, members of the Sport Fish and Boating Partnership 
Council, which includes representation from States, from the 
fishing industry, conservation organizations, and so on, are 
helping to, in effect, chart a course for the future for the 
whole fish hatchery system.
    So these three things are going on at once. We are 
committed to working with those partners, those external 
partners in developing a vision and a plan for the future for 
our fish hatchery program and the entire fisheries program.
    Mr. Underwood. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Williams, can you give us some idea of what the backlog 
is in the hatchery program and how old some of the hatcheries 
are right now?
    Mr. Williams. With your approval, I think I would have to 
turn that one over to--the backlog is--sorry for this tag-team 
testimony.
    Mr. Gilchrest. That is all right. Tag teams are good. We 
have tag teams up here. That is how we come up with the 
questions.
    [Laughter.]
    Mr. Williams. I hope it continues when we go to ``Cheers'' 
after the meeting.
    [Laughter.]
    Mr. Williams. About $328 million is the estimated 
maintenance backlog.
    Mr. Gilchrest. Thank you.
    Mr. Williams. And the oldest hatchery is 114 years old.
    Mr. Gilchrest. Where is that? Where is the oldest hatchery? 
I am just curious.
    Mr. Williams. We will find out for you.
    Mr. Gilchrest. It is not in Alaska, is it?
    Mr. Williams. I doubt it.
    [Laughter.]
    Mr. Gilchrest. OK. Mr. Williams, you made the statement 
that you are going to eliminate ecosystem coordinators. Now, 
there is a gentleman in the Northeast region whose name is Ed 
Christophers and he is the ecosystem coordinator for this 
region, which includes the Delmarva peninsula of Maryland, 
Delaware, and Virginia.
    Ed Christophers over the last couple of years has been 
absolutely instrumental and essential with the Fish and 
Wildlife Service, working with numerous other Federal and State 
agencies, to develop a concept called Conservation Habitat 
Wildlife Corridor that will run from Virginia to Pennsylvania 
and take in the streams, the rivers, the estuaries, and in a 
voluntary way with the agricultural community, develop a 
conservation corridor that will connect all of the open space, 
fish and wildlife refuges, State lands that we will call hubs.
    Black Water Refuge, for example, is about 27,000 acres. 
Eastern Neck Island up in Kent County on the Northern shore, I 
am not sure, 5,000, 10,000 acres. There are numerous State-
owned properties. There are large tracts of privately owned 
land that are designated as hubs and the corridor will connect 
these hubs for the purpose of wildlife habitat.
    Ed Christophers, the ecosystem coordinator, has worked with 
the three States, numerous NGO's, the Federal Government to 
develop a map of that region and how it can be implemented. I 
know, Mr. Williams, it is very difficult to come up with 
budgets. There are millions of priorities out there and we try 
to spend our money as efficiently as possible. But my 
recommendation is one way to spend the taxpayers' dollars where 
you get the best advantage, at least in our experience, is to 
retain those ecosystem coordinators because they do some 
phenomenal work.
    Mr. Williams. Mr. Chairman, if I could, I would have 
Marshall Jones respond to that.
    Mr. Jones. Thank you. Mr. Chairman, Ed Christophers' work, 
which he began not in his present position as ecosystem 
coordinator but prior to that when he worked in the Delaware 
Susquehanna area, is an example of the on-the-ground things 
that will continue.
    The elimination of the ecosystem coordinator positions--
that is one position in each of our regional offices--was a 
reflection of the fact that we believe the approach we are 
taking has been institutionalized. We have good projects on the 
ground like the one that you are describing and those will 
continue without being interrupted. We do not feel we need a 
full-time person in each regional office who will be 
coordinating these activities, but rather they will be 
initiated, as this one was, in the field from our project 
leaders, from our coordinators, and from our refuge managers 
who will be working in the field and then interacting with 
their supervisors.
    I know that Dr. Mamie Parker, our Regional Director for the 
Northeast Region, is committed to continuing with that, so we 
will find other good work for Ed Christophers to do.
    Mr. Gilchrest. So we are eliminating the title but not the 
person?
    Mr. Jones. We are eliminating that position in each 
regional office, but we will continue with the work that is 
going on in the field. We just do not think we need a full-time 
person--
    Mr. Gilchrest. What is going to happen to Ed? Is he going 
to be transferred?
    Mr. Jones. We will have other good work for him to do and I 
think it will be work that you will see as a benefit.
    Mr. Gilchrest. So he will stay in his present--unless he 
gets transferred as a natural consequence of a career move?
    Mr. Jones. We have an Ed Christophers person in each of our 
seven regional offices and we will have other duties for those 
people to do which will fit within our existing structure. We 
will make sure that they all wind up on their feet in good 
jobs, and it could very well be that they will continue to be 
contributing to the same projects, but we do not need to have a 
separate, full-time Ecosystem Coordiantor. We have this 
approach built into our ecological services, fisheries and 
refuge programs in such a way that we do not need a full-time 
person as a focal point.
    Mr. Gilchrest. I think I understand what you are saying and 
I think I am following you. In an ecological sense, the concept 
of ecosystem management or approach is relatively new and many 
people find the term offensive. Some people do not understand--
not that I understand, but some people think that there is no 
such thing as an ecosystem, so sometimes they want it stricken 
from every tablet in the kingdom. I hope that is not the case 
with the Fish and Wildlife Service because I think our 
understanding has become a little bit more sophisticated in 
knowing that there is such a thing as an ecological system that 
is very dynamic, very complex, but also very important. Thank 
you for that explanation.
    Just a couple other quick--
    Mr. Underwood. Would you yield?
    Mr. Gilchrest. Yes, I will yield, Mr. Underwood.
    Mr. Underwood. I want to save Ed and others like him. Is 
this connected at all to an inquiry that was made in my office 
as to the removal of a position in the Pacific Island Area 
Office in Honolulu, or is that a separate issue?
    Mr. Jones. No, Mr. Underwood, that would not be connected. 
There is an individual in the Portland Regional Office--
    Mr. Underwood. The Portland office.
    Mr. Jones. --who would be parallel, and that person already 
is picking up some other important work to do. But it would not 
reflect any staffing change out in the Pacific Islands.
    Mr. Underwood. Thank you.
    Mr. Gilchrest. The invasive species continues to be of some 
concern to a great number of people. We still have problems 
with nutria on the Eastern Shore of Maryland as, Mr. Williams, 
we talked about yesterday. There are numerous other places 
around the country that have those issues, as well, and the 
sooner we eradicate them, the less expensive it is going to be, 
based on the number of animals and the damage that they do and 
so on.
    I guess my last inquiry will deal with two things. Very 
quickly, before I forget, to Admiral Lautenbacher, you 
mentioned fishery research vessels. If we could continue to 
define that as fishery surveying vessels, it will not be bumped 
over to the Science Committee, so we can keep that over here.
    Admiral Lautenbacher. I understand. They are survey 
vessels, fishery survey vessels.
    Mr. Gilchrest. Thank you, Admiral.
    Admiral Lautenbacher. Yes, sir. Thank you, sir.
    [Laughter.]
    Mr. Gilchrest. We have a tag team up here that is good at 
all that.
    There are two bills, I believe, Mr. Williams, dealing with 
ESA peer review kinds of things, and either now or at some 
point, we would really appreciate your input as to the need for 
better peer review to determine listed species and then what 
that kicks in as far as Fish and Wildlife Service is concerned. 
Do you fundamentally have a system now that does not need a lot 
of improvement or does not need legislation? Do you feel there 
is legislation necessary for a more defined or a different kind 
of system for peer review?
    Mr. Williams. Well, I would say, first off, that just 
relatively recently, I was made aware of the bills and have not 
had a chance to really digest them. In fact, I have seen one, 
but I have not seen the other and really have not had a chance 
to digest them. So I would reserve any comment on them at this 
time.
    I would point out that there is a fair amount of peer 
review that goes on now and has gone on probably, since the 
early 1990's, if not before, in terms of endangered species 
issues. I would also point out that as an example of some peer 
review that has gone on, I will give you just three quick 
examples.
    The first two were examples of our opinion on the Missouri 
River, operation of the Missouri River, and the second on 
Atlantic salmon. Those two opinions were reviewed by the 
National Academy of Sciences and there was agreement in the 
conclusions that we drew and the conclusions the National 
Academy of Science drew.
    One more recent--
    Mr. Gilchrest. Could you just elaborate on NAS's review of 
that particular issue?
    Mr. Williams. I cannot go into details, but the others here 
could. On the Missouri River biological opinion, the National 
Academy of Science reviewed that opinion and reached the same 
conclusions we did with regard to the science that was involved 
in that case. The same thing goes for, I believe it was a 
biological opinion on Atlantic salmon, where, again, they 
upheld our analysis and evaluation.
    A more recent one that we are probably all aware of that 
made headlines was the Klamath opinion, a biological opinion 
developed last year where the NAS took issue with one of our 
findings and one of our conclusions regarding water levels. 
What they said was that there was insufficient data to back up 
some of our assertions. There were a number of other findings--
    Mr. Gilchrest. What is the next step for Fish and Wildlife 
now if the NAS said there was insufficient data? What does that 
mean?
    Mr. Williams. Well, we are working--
    Mr. Gilchrest. Do you need to go back?
    Mr. Williams. I am sorry?
    Mr. Gilchrest. Do you need to go back and reevaluate your 
data or come up with more data to determine your biological 
findings with water levels?
    Mr. Williams. Well, actually, that was an opinion for last 
year. We are working on a new biological opinion to respond to 
biological assessment that the Bureau of Reclamation recently 
released, I believe the end of February. So the one NAS 
reviewed is sort of behind us. We certainly will take lessons 
from that, lessons we learned from there, in developing the 
biological opinion for the next 10 years of operation of the 
Klamath project. But NAS also agreed with a number of our 
findings in our last biological opinion on Klamath.
    So I just bring those out as examples of where we are using 
peer review. I certainly think that there are opportunities 
that we might avail ourselves of for additional peer review on 
certain projects at certain times and we are kind of in a 
process of evaluating as we speak, or at this time, evaluating 
when we would more formally request peer review from outside 
sources, again, depending on what the particular issue is, how 
contentious that issue might be, what impacts our decision 
might be on a variety of factors.
    So we are thinking, also, about the application of outside 
peer review, but again, it is a bit premature for me to make 
any real conclusions at this point.
    Mr. Gilchrest. Thank you very much. Just one quick follow-
up question, Mr. Williams. The conservation plans that have 
been in effect now for a few years for each of the refuges, do 
you feel that the Administration has--the $1 million the 
Administration has in its budget for Fiscal Year 2003, is that 
sufficient for the CCPs?
    Mr. Williams. I am sorry. That would be a $1 million 
increase over--the base is $8.3 million. The $1 million would 
be on top of that, so it is additional money.
    Mr. Gilchrest. I see.
    Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman.
    Mr. Williams, drawing attention to the Cooperative 
Conservation Initiative, which is a program designed to 
encourage resource managers in Fish and Wildlife Service to 
work with local communities, in trying to understand what CCI 
would do, it kind of parallels some of the things that we are 
trying to work on in terms of the legislation that has been 
proposed to control and mitigate non-native species, which is 
one of the big issues certainly that Mr. Gilchrest has in his 
area, many, many members have in their area, and, of course, we 
have with the brown tree snake in Guam.
    So as you envision, or as the Service, as the 
Administration envisions the CCI, is there going to be some 
attention devoted to non-native species in that effort?
    Mr. Williams. It certainly would allow addressing those 
sorts of invasive species. It is focusing on natural resource 
restoration, so in those habitats that are affected or impacted 
by invasive species, this program would provide an opportunity 
for the refuge manager, if you will, for instance, to form a 
partnership with other organizations, individuals, localities, 
and compete for grant dollars to address those problems. So the 
short answer, I believe, would be yes, sir.
    Mr. Underwood. If we were able to move this legislation, 
CCI, the initiative would inevitably be drawn into work with 
the non-native species. I mean, that is how we are envisioning 
it, because as you appreciate, many of the projects that the 
Service is engaged in actually have to work on the invasive 
species problem as a priority in many areas.
    Mr. Williams. It certainly is a priority in many areas. The 
CCI dollars are not intended to be restricted to invasive 
species projects.
    Mr. Underwood. I understand.
    Mr. Williams. --but I believe that there is certainly the 
latitude in the program to allow those dollars to be used to 
address invasive species.
    Mr. Underwood. Given the characterization, in reference to 
Guam and the brown tree snake problem, given the 
characterization that the greatest threat to Hawaii's 
ecological system is the brown tree snake, and, of course, it 
has created a number of problems in Guam, I just think the 
amount of budgetary effort devoted to eradicating or 
controlling the snake is inadequate. If, indeed, it is the 
greatest ecological threat, not just to Hawaii but to 
surrounding islands, including Saipan in the Northern Marianas 
and Rota to the north where the birds and the bats, the fruit 
bats, are still in relative abundance, I think that the Service 
is not devoting an appropriate level of effort to that.
    Mr. Williams. After our discussion the other day, I went 
back and talked to folks in the agency about that issue, and it 
is my understanding from those discussions that there used to 
be, there was, up until Fiscal Year 1993, monies appropriated 
through the Fish and Wildlife Service to address the problem 
that you are describing. In 1994, when much of the research 
component of the Service was moved to the U.S. Geological 
Survey, it is my understanding that those dollars for snake 
control went with those folks, and so now the funding--again, 
my understanding is the funding resides in the U.S. Geological 
Survey budget rather than in our budget.
    Mr. Underwood. That may be true, but what I am trying to 
establish is the fact that it is the Service's responsibility 
to grapple with this issue. It has also been evident in the 
past that there have, for example, been funds earmarked in 
Department of Defense budgeting for this. When that happens, 
when Senator Inouye indicates his strong concern about this and 
he earmarks DOD monies for it, what happens is that it draws a 
lot of negative attention. People think it is a very trivial 
concern and it is not a trivial concern. But if it were funded 
by the appropriate agency in the Federal Government, I think we 
would be on firmer ground, so I still continue to maintain 
that.
    I also discussed another issue with you and that is that 
just basically in terms of the Fish and Wildlife Service 
property in Guam, there is just a continual, and I wish this 
CCI process would have been perhaps engaged in earlier, this 
just continual fighting with the local community on a whole 
range of issues, and now that has been exacerbated by the 
closure of Anderson Air Force Base to anybody going through it, 
and now people who have ecotourism, which normally we 
encourage, on one end now have to try to go across the Fish and 
Wildlife Service property and it is just becoming almost an 
untenable situation.
    I want to explore the idea of trying to find some kind of 
alternate arrangement which would include the Fish and Wildlife 
Service perhaps relinquishing that property. I know that is a 
pretty drastic step, but given the nature of the circumstances 
and the willingness of the government of Guam to engage in some 
kind of partnership on that, perhaps through this process, we 
could start to explore that.
    Mr. Williams. Relatively recently, the Governor of Guam met 
with Secretary Norton, and although I was not in attendance, I 
know that topic came up. I commit to you that we will continue 
our dialog with the folks in Guam and keep you apprised as we 
try to resolve that situation.
    Mr. Underwood. Thank you. Admiral Lautenbacher, the 
National Oceanic and Atmospheric Administration, that is the 
title of your agency, and then we have the Pew Trust event, a 
lot of attention drawn to the importance of the oceans, a lot 
of political rhetoric about we know more about the surface of 
the moon than we do the bottom of the ocean. We had the energy 
coming out of the Monterey conference. We had all of this, and 
now this budget that you are proposing cuts back on many of 
those efforts.
    It seems to me to put the atmospheric before the oceanic, 
and I am just trying to understand, what is the thinking behind 
that, given the fact that almost everyone we are involved with 
understands that the ocean--people are fond of telling young 
people today, you know, when you become grandparents and great 
grandparents, most of your food is going to come from the 
ocean. Much of our lives will be determined by what we know 
about the ocean. And yet, it does not seem that we are 
preparing for that. Instead, it seems like we are backtracking 
rather than perhaps taking advantage of that renewed interest 
and renewed energy and renewed understanding of the ocean 
around us.
    Admiral Lautenbacher. I certainly understand and resonate 
with those concerns and I have said similar things in my prior 
lifetime. I still believe that what you say is absolutely true. 
I am dedicated to try to work hard to improve public 
understanding of these issues and to gain public support for 
these issues.
    We have, to talk about the other side of this, we have some 
very important priorities in the country now that were not in 
evidence until 9/11 of last year. We have worked hard within 
the Administration to try to build a budget that balances the 
needs of the country across some very important new emergency 
types of priorities, such as homeland defense and the war on 
terrorism, the economic security issue that we have had.
    And what I will say is that even given those priorities, 
which are very, very important to our nation, that the 
Administration supported NOAA at the level that it was last 
year, and that level, I would say, has increased. If you go 
back over the last 10 years, you will see that there has been 
public support, both within the Administration and Congress, to 
increase the amount of resources devoted to the types of issues 
which you have so passionately described and which are, I 
think, very important to our country.
    It is very hard to build a budget, as the Chairman 
mentioned, because there are many, many needs, and sorting out 
the priorities is a very difficult process. I will continue to 
support as much as we can do to build understanding and build 
support for our budget.
    Mr. Underwood. I would still maintain that the budget does 
not reflect those concerns adequately.
    On the issue just of the National Weather Service, on this 
side of the International Date Line, they are called 
hurricanes, and on the other side, they are called typhoons, 
and almost all of us are familiar with the fact that when 
hurricanes occur in the Caribbean or on the Eastern seaboard, 
these hurricane hunters go chase them down. It is an Air Force 
reserve unit that operates out of Mississippi. and even if 
there was a hurricane threatening Hawaii, they still have ample 
opportunity to use those hurricane hunters to fly into those 
storms.
    Two questions on that. One is the obvious, the people who 
do not get the benefit of that are the people in Guam, on the 
other side of the date line. We do not get the benefit of 
planes flying into those storms and taking those readings, and 
the fact of the matter is that we get 70-plus storms every year 
that go in and around and near Guam. It matches almost entirely 
the total number of storms that you get here in a typical 
hurricane season.
    As I tried to work this issue with the National Weather 
Service, I was informed that, well, they are trying to work 
with a Gulf Stream, some kind of National Weather Service 
plane, to start doing what the Air Force currently does. One, 
does NOAA continue to support the use of these hurricane 
hunters or do we find them irrelevant, and is there any kind of 
financial support given to them?
    Admiral Lautenbacher. We continue to support hurricane 
hunters and we have our own and the Air Force supports us, as 
well. We are trying to outfit that Gulf Stream to give it the 
right kind of sensors so that it can be a benefit. Right now, 
it does not have all of the instrumentation it needs on it to 
do the kind of work you are talking about. It is not a plane 
that would fly into a hurricane, but it could provide very 
useful information in the path or off to the side from a major 
tropical storm or hurricane. We do continue to support that to 
the limits of our funding.
    Mr. Underwood. Again, if protection and the use of the 
hurricane hunters, it is not the overall prediction that 
matters, it is the intensity of the winds and where they hit 
landfall and that is what the hurricane hunters provide, 
greater than any kind of existing technology. So I would just 
have to say that out in the middle of the ocean in the Pacific, 
we are just not covered by that. It is obviously another great 
source of concern to people out there, especially inasmuch that 
at one time, we had two weather squadrons. We had one Navy and 
one Air Force taking care of them out of Guam. So that is just 
another budgetary concern, Mr. Chairman.
    Admiral Lautenbacher. I understand, sir. Thank you.
    Mr. Gilchrest. Mr. Underwood, you are a strong advocate for 
Guam and I commend you for it. I think, in essence, Mr. 
Underwood is volunteering for one of those flights to see how 
the data is collected.
    [Laughter.]
    Mr. Underwood. OK, we will go together.
    Mr. Gilchrest. All right.
    [Laughter.]
    Mr. Gilchrest. I have a strong pair of binoculars.
    I have a number of other questions, but I have another 
commitment and what I would like to do is, along with Mr. 
Underwood, submit some questions to NOAA and Fish and Wildlife, 
NOAA specifically questions dealing with the hydrographic 
services, standards that may or may not be promulgated at this 
point and the kind of surveyors or who will be hired to do some 
of that work, and some other questions about marine sanctuaries 
and so on. I would like to submit those questions that we have 
here in the record, but I would like to send them over to your 
offices and hope that within the next few weeks we could get a 
response to those questions.
    Mr. Underwood. Can I just ask one more question?
    Mr. Gilchrest. Mr. Underwood has a question about the type 
of plane that is flying into that hurricane, I think.
    [Laughter.]
    Mr. Underwood. Thank you, Mr. Chairman, for your 
indulgence. Just one quick question, Mr. Williams. This is one 
the Suarez bears matter in Puerto Rico. I know that the Fish 
and Wildlife Service has confiscated and transferred to the 
Baltimore Zoo one of the seven polar bears that are currently 
in Puerto Rico. Does this mean that Fish and Wildlife will not 
issue any export permits for the bears remaining in Puerto 
Rico? As I understand it, the documents that were provided to 
APHIS actually misrepresented--they did some DNA testing and 
one of the bears was not who they said they were. It is not the 
bears' fault. I think is more Suarez's fault.
    [Laughter.]
    Mr. Underwood. I do not think the bears are trying to sneak 
into the country, but it is a humanitarian concern and I think 
the Service has done a good job of cooperating with Puerto Rico 
on that, but there still remains the remaining bears.
    Mr. Williams. Thank you for those comments. I think since 
this is a relatively sensitive matter, I will not take a stab 
at that, but Kevin Adams, our Assistant Director for Law 
Enforcement, and Ken Stansell, who is Assistant Director for 
International Affairs, are here and I believe they can answer 
that question for you.
    Mr. Stansell. Thank you very much. Relative to the re-
export certificate, we currently have an application that is 
pending, we received on February 12, and the Service is in the 
process of reviewing that application now.
    Given the situation with at least one of the bears, where 
we did receive evidence that that was not the bear in question, 
we are in the process now of reviewing all of the documentation 
that we have on the remaining bears before we consider issuance 
of a re-export certificate for the remaining bears.
    Mr. Underwood. Thank you. Thank you for your forbearance, 
Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Gentlemen, thank you for your testimony and we look forward 
to working with you.
    The hearing is adjourned.
    [Whereupon, at 3:23 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
